<html>
<title> - CAMERA RULE REPEAL</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                           CAMERA RULE REPEAL

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. RES. 298

  A RESOLUTION AMENDING THE RULES OF THE HOUSE OF REPRESENTATIVES TO 
   REPEAL THE RULE ALLOWING SUBPOENAED WITNESSES TO CHOOSE NOT TO BE 
                   PHOTOGRAPHED AT COMMITTEE HEARINGS

                               __________

                            November 4, 1997

                               __________

             Printed for the use of the Committee on Rules



                               <snowflake>



                      U.S. GOVERNMENT PRINTING OFFICE
 46-219 CC                    WASHINGTON : 1998
_______________________________________________________________________
                 For sale by the U.S. Government Printing 
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402


                           COMMITTEE ON RULES

                GERALD B.H. SOLOMON, New York, Chairman

DAVID DREIER, California             JOHN JOSEPH MOAKLEY, Massachusetts
PORTER GOSS, Florida                 MARTIN FROST, Texas
JOHN LINDER, Georgia                 TONY P. HALL, Ohio
DEBORAH PRYCE, Ohio                  LOUISE M. SLAUGHTER, New York
LINCOLN DIAZ-BALART, Florida
SCOTT McINNIS, Colorado
DOC HASTINGS, Washington
SUE MYRICK, North Carolina

                    William D. Crosby, Chief Counsel

                    Daniel J. Keniry, Staff Director

              George C. Crawford, Minority Staff Director

               Bryan H. Roth, Office and Systems Manager

                                 ______

             Subcommittee on Legislative and Budget Process

                     PORTER GOSS, Florida, Chairman

JOHN LINDER, Georgia                 MARTIN FROST, Texas
DEBORAH PRYCE, Ohio                  JOHN JOSEPH MOAKLEY, Massachusetts
DOC HASTINGS, Washington
GERALD B.H. SOLOMON, New York

                          Wendy Selig, Counsel

                Kristi Walseth, Minority Staff Director

                                 ______

          Subcommittee on Rules and Organization of the House

                   DAVID DREIER, California, Chairman

LINCOLN DIAZ-BALART, Florida         TONY P. HALL, Ohio
SCOTT McINNIS, Colorado              LOUISE M. SLAUGHTER, New York
SUE MYRICK, North Carolina
GERALD B.H. SOLOMON, New York

                       Vincent Randazzo, Counsel

                Michael Gessel, Minority Staff Director

                                  (ii)



                            C O N T E N T S

                               __________
                                                                   Page

                            November 4, 1997

Opening statement of the Hon. Gerald B.H. Solomon, chairman of 
  the Committee on Rules (prepared statement p.03)                   01
Opening statement of the Hon. John Joseph Moakley, ranking 
  minority member of the Committee on Rules (prepared statement 
  p.07)                                                              05
Statement of:
    Barr, Hon. Bob, a Representative in Congress from the State 
      of Georgia.................................................    22
    Dingell, Hon. John D., a Representative in Congress from the 
      State of Michigan (prepared statement p.32)................    28
    Kanjorski, Hon. Paul E., a Representative in Congress from 
      the State of Pennsylvania (prepared statement p. 38).......    34
    Brand, Stanly M., former House Counsel, U.S. House of 
      Representatives (prepared statement p.48)..................    45
    Robinson, Peter, former Assistant Parliamentarian, U.S. House 
      of Representatives.........................................    59
    Tiefer, Charles, former General Counsel to the Clerk, U.S. 
      House of Representatives (prepared statement p.63).........    60
    Cochran, Barbara, President, Radio-Television News Directors 
      Association (prepared statement p.79)......................    76
    Dillon, Tim, Chairman, Standing Committee of Press 
      Photographers..............................................    84
Additional Information:
    Information submitted by Chairman Solomon....................    19

                                 (iii)



     H. RES. 298, A RESOLUTION AMENDING THE RULES OF THE HOUSE OF 
  REPRESENTATIVES TO REPEAL THE RULE ALLOWING SUBPOENAED WITNESSES TO 
          CHOOSE NOT TO BE PHOTOGRAPHED AT COMMITTEE HEARINGS

                              ----------                              


                       Tuesday, November 4, 1997

                  House of Representatives,
                                Committee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 6:15 p.m. in Room 
H-313, The Capitol, Hon. Gerald B.H. Solomon [Chairman of the 
committee] presiding.
    Present: Representatives Solomon, Dreier, Diaz-Balart, 
Myrick, Hastings, McInnis, Goss, Moakley, Frost, and Hall.
    The Chairman. The committee will come to order. You will 
have to excuse my voice. I am running out of voice today. It 
has been a long year.
    The subject matter of this hearing is a resolution which 
repeals the exception in House rules to the requirement that 
public committee proceedings be open to the media. I have a 
brief opening statement before I yield to my good friend, Mr. 
Moakley.
    Let me just say that in several high-profile congressional 
investigations in recent years certain witnesses, subpoenaed to 
appear before congressional committees, have invoked a little-
known House rule, clause 3(f)(2) of rule 11, during their 
appearances before these various committees.
    This rule, as the Members are aware, allows a subpoenaed 
witness, and we are talking about subpoenaed witnesses here, to 
demand that TV cameras be turned off, that still photography 
cease, and that radio coverage end as well, while the witness 
is testifying before the committee after being sworn. That 
means a witness, for no reason at all, can arbitrarily kick out 
radio, television, photographers, leaving the written media 
with what I would consider to be an unfair news reporting 
advantage.
    The assertion of this right before several committees since 
the late 1980s has given many Members on both sides of the 
aisle firsthand experience with this rule. Several Members from 
both sides of the aisle who are very active in their committee 
work have found the rule frustrating and have approached me and 
other members of this Rules Committee on the House floor to 
change that rule.
    The sweeping changes in electronic communications, and the 
vast number and scope of news media outlets available to cover 
Government events, has also led Members to wonder if this rule 
may be an anachronism.
    The chairman of the Executive Committee of the Radio-
Television Correspondents' Galleries, Mr. Vic Ratner has 
written to the Rules Committee, and you all have copies of his 
letter, for the second year in a row requesting that the 
committee repeal this House rule. The rule, the Radio-TV 
Correspondents' rightly argue, unfairly discriminates against 
the electronic media. I do not think there can be any question 
about that.
    The Rules Committee finds the practical concerns of Members 
and the arguments of the Radio-TV Correspondents' to be well-
founded. By repealing this rule, House committees, in their 
infinite wisdom, can still consider whether to close a meeting 
and expel all press and all public, if an assertion is made 
that testimony may tend to defame, degrade or incriminate any 
person. And that does not have to be made just by the witness, 
it can be made by a Member of Congress or by anyone.
    Witnesses enjoy several important protections, which 
require committee votes under current House rules, clause 2(g) 
and (k) of rule 11. These rules will remain in effect if we 
proceed to repeal the so-called camera rule.
    House Members may be so accustomed to TV coverage of the 
House floor and its committees that they may forget that for 
many years the practice of the House was not to allow 
television broadcast of any committee proceedings, and I am 
sure that some of you, Mr. Moakley, Mr. Dingell and others who 
were here way back in the early 1970s would recall that. It was 
not until 1970 that the House permitted committees the ability 
to adopt rules allowing TV broadcast coverage if a committee 
voted to do so.
    In 1995, as part of the historic Republican opening day 
reform package, we revised this rule to allow more sunshine to 
illuminate committee proceedings for the public. Under the new 
House rule, any meeting, as all of you know, any meeting or 
hearing must be open to all media coverage, nobody to be 
excluded, if the session is open to the public, which in fact 
most hearings and meetings are today.
    I consider the resolution before us today as a natural 
follow-through to those sunshine reforms adopted at the 
beginning of the 104th Congress. I believe the House can, from 
time to time, adapt itself to new technology and at the same 
time assist in the education of the public about Congress. We 
should keep in mind that an informed citizenry is critical to 
the success of our republic.
    Having said that, I yield to my good friend, Joe Moakley, 
for any opening statement that he might have before we 
entertain witnesses.
    [The prepared statement of Mr. Solomon follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.001
    
    [GRAPHIC] [TIFF OMITTED] T7094.002
    
    Mr. Moakley. Thank you very much, Mr. Chairman. We are here 
tonight with very little notice to take away fundamental rights 
guaranteed witnesses by the House rules.
    But before we get into the substance of the resolution, Mr. 
Chairman, let me ask, what is the rush? We only received notice 
of this meeting late Friday afternoon for today's 6 p.m. 
hearing. The House had already adjourned for the week, Members 
had already left town for the weekend, the House was out of 
session until Tuesday, and votes were not expected before 5 
o'clock. There was no indication, no announcement last week by 
you, Mr. Chairman, that this matter was likely to come before 
the Rules Committee. It was not even announced by the majority 
leader on Friday as part of the schedule for the following 
week. It was not listed on the floor schedule that was 
distributed on Monday morning. No advanced notice was given to 
anyone, at least on our side of the aisle, that consideration 
and disposal of this measure was expected to occur in the 
immediate future. There is no justifiable reason why we must 
act in this careless and this hurried fashion.
    The rule you want to repeal, Mr. Chairman, was adopted in 
response to the shameful abuses by this House in the McCarthy 
era. Some say it originated in a suicide note. In June of 1957, 
the House Un-American Activities Committee opened up hearings 
in San Francisco. A young cancer researcher named William 
Sherwood was subpoenaed to appear on camera before the 
committee. Two days before his scheduled appearance he wrote a 
note expressing his "fierce resentment of being televised." He 
then jumped from his hotel window to his death.
    Cameras and live broadcasts were banned from committee 
hearings from 1957 until the Congress enacted the Legislative 
Reorganization Act of 1970. The 1970 act, Mr. Chairman, which 
grew out of an extensive and lengthy hearing process by a 
special subcommittee, contained the identical language, word 
for word, that is in the current rules, the same language, the 
very same language, that you seek to repeal.
    Senator Javits, while serving in the House, representing 
your great State, Mr. Chairman, was one of the first Members to 
champion the use of TV cameras in the Congress. However, he was 
cognizant of how it might impact on the rights of witnesses, 
and in February of 1952 he said, "the indiscriminate use of 
television and radio could very easily in many cases work out 
to invade the individual's rights." How right he was.
    Representative Hugh Scott, Republican of Pennsylvania, and 
Chairman of the Rules Subcommittee in the Republican-controlled 
83rd Congress, said in March of 1955 that a code of fair 
committee procedures must protect a witness from distraction, 
harassment, or nervousness that could be caused by radio, TV, 
and motion picture coverage at hearings. The closest we have to 
this law is clause 3(f) of rule 11.
    Mr. Chairman, witnesses do not always have the opportunity 
to rebuff statements made to them by members of the panel. They 
cannot object to a question that is misleading or 
incriminating. They can be held in contempt if they refuse to 
answer any question, regardless of how inappropriate that 
question may be. They may have a lawyer present, but that 
lawyer is virtually powerless to halt an unfair line of 
questioning. To further subject these witnesses to unwarranted 
television and radio coverage, I feel, is a flagrant abuse of 
the power by the Members of Congress.
    Mr. Chairman, let us not forget that committees also make 
mistakes. Recently Chairman Burton subpoenaed the records of 
the wrong Chi Wong. They did it again and subpoenaed the 
records of the wrong Li Ping Chen. They subpoenaed the records 
of Li Ping Chen Hudson, who had nothing to do with any kind of 
fund-raising. These subpoenas were for documents, but these 
innocent citizens might just as easily have been called and 
grilled before rolling TV cameras.
    The protection provided in clause 3(f)(2) of rule 11 is all 
that a witness can use to protect him or herself from such 
exploitation. Now even that small refuge is to be taken away 
leaving witnesses at the mercy of an often hostile panel.
    When I sat in your chair, Mr. Chairman, I, too, heard from 
frustrated Chairmen who wanted to repeal the rule because an 
individual invoked their rights. They said the rule inhibited 
the freedom of the press. I told them the first amendment 
rights of the press and the public's right to know are in no 
way diminished by the rule in its present form. The print and 
broadcast press are not excluded from a hearing and nothing in 
this rule prevents any reporter from fully covering the 
hearing.
    But American citizens, Mr. Chairman, have a right of 
privacy, a right to avoid the limelight of cameras. And when 
Congress compels--when Congress compels; these are not 
volunteers--when Congress compels an individual to testify, he 
or she should have an absolute right to demand that the cameras 
be turned off.
    I deeply regret that we are moving in this direction today. 
I can only implore you and the Majority to listen to our 
witnesses who are here today and take careful heed of all they 
have to say on this issue. Let us not blindly jump in and strip 
away this vital protection from these witnesses who are obliged 
to testify by order of congressional subpoena.
    Just hours ago we reported a rule on a measure to reform 
the Internal Revenue Service. The legislation was needed, Mr. 
Chairman, because the IRS is sometimes overzealous and 
intimidates American citizens. We have to pass that bill 
because the average American cannot escape the callous tactics 
of this organization. So let us think, let us reflect, let us 
not allow ourselves to become another IRS in the eyes of the 
American public.
    [The prepared statement of Mr. Moakley follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.003
    
    [GRAPHIC] [TIFF OMITTED] T7094.004
    
    [GRAPHIC] [TIFF OMITTED] T7094.005
    
    [GRAPHIC] [TIFF OMITTED] T7094.006
    
    [GRAPHIC] [TIFF OMITTED] T7094.007
    
    [GRAPHIC] [TIFF OMITTED] T7094.008
    
    [GRAPHIC] [TIFF OMITTED] T7094.009
    
    [GRAPHIC] [TIFF OMITTED] T7094.010
    
    [GRAPHIC] [TIFF OMITTED] T7094.011
    
    Mr. Frost. Mr. Chairman.
    The Chairman. I will recognize the gentleman in just a 
minute, but I just need to respond so that everyone knows 
exactly what we are doing here this evening.
    Now before us we have the proposition to repeal this 
provision, and you all should listen carefully because then I 
am going to cite what we are going to leave in place, which 
tends to support the gentleman's argument, and we are going to 
leave that in place.
    What we are going to repeal this evening would be this: No 
witness served with a subpoena by the committee shall be 
required against his or her will to be photographed at any 
hearing or to give evidence or testimony while the broadcasting 
of that hearing by radio or television is being conducted. At 
the request of any such witness who does not wish to be 
subjected to radio, television or still photography coverage, 
all lenses--this is simply at the request, arbitrarily by 
anyone--at the request of any such witness who does not wish to 
be subjected to radio, television or still photography 
coverage, all lenses shall be covered and all microphones used 
for coverage turned off.
    Now, that is what we are proposing to repeal. Now, this is 
what is left in place. This is what the rule of the House is 
now:
    "Whenever it is asserted that the evidence or testimony at 
an investigatory hearing may tend to defame, degrade, or 
incriminate any person"--you all heard that and understand 
that--"such testimony or evidence shall be presented in 
executive session, notwithstanding the provisions of clause 
2(g)(2) of this rule, if by a majority of those present, there 
being in attendance the requisite number required under the 
rules of the committee to be present for the purpose of taking 
testimony, the committee"--and this is the key part--"the 
committee determines that such evidence or testimony may tend" 
--not will, but may tend--"to defame, degrade, or incriminate 
any person."
    Now, that is what is going to be left in place. Now, that 
means that whoever the witness may be, whoever the Member of 
Congress may be, they can request the committee to immediately 
make the decision on whether this would tend to defame or 
incriminate or degrade any person. And if the committee in its 
infinite wisdom decides that it would, then the meeting is 
completely closed, all the media is removed, and they proceed 
in executive session. That is what we are proposing here today.
    I think, Joe, you made the statement that the witness have 
the rights, but I think the American people, we made this 
decision a long time ago, for right or for wrong, that we would 
televise the proceedings of this House and of the committee 
proceedings and we are going to continue to do that.
    Mr. Moakley. Because we are all here voluntarily to do 
that.
    The Chairman. And this simply clarifies and allows the 
committee to close the hearing if there would tend to be damage 
to any Member.
    Mr. Moakley. May I respond, Mr. Chairman?
    The Chairman. I will let Mr. Moakley respond, then Mr. 
Frost.
    Mr. Moakley. You are still depriving the American citizen 
of a right and you are putting it up to the majority of the 
committee sitting. That is not what our people who set up this 
rule intended.
    These are absolute rights given to the American citizen, 
and I do not think the committee should be able to make the 
decision to take those rights away, even if it is on a case-by-
case individual ruling.
    The Chairman. Mr. Frost.
    Mr. Frost. Mr. Chairman, I have to leave the committee for 
a little while because I have an engagement I have to go to, 
but I want to give a little background on this. And I think it 
is important to realize that sometime in the future there will 
be a Democratic majority in this House just as there was a 
Democratic majority in the past.
    In 1989, I served as chairman of the caucus rules committee 
of the Democratic Caucus and there was a proposal from 
Democrats to change this rule before my committee, before my 
caucus rules committee. My caucus rules committee rejected that 
proposal. Let me tell you what the situation was.
    There was a Republican, former Republican cabinet member 
who came and testified before a committee controlled by 
Democrats and that Republican cabinet member invoked this rule 
and it made the Democrats on the committee so mad that they 
wanted to abolish the rule so that no Republican cabinet member 
could ever come forward and be shielded from television.
    Now, what goes around comes around. What we have right now 
is the Republicans in control and you want to bring Democrats 
before the committee. We had a situation 10 years ago when the 
Democrats were in control and we wanted to bring Republicans 
before the committee and we chose, the Democratic Caucus chose, 
to leave this rule in place and let Republicans who appeared 
before the committee invoke the rule and not be required to be 
on television.
    I think it is important to understand what the current 
situation may not be the situation 2 years or 4 years from now 
and that we should not be caught up, swept up in the emotions 
of the moment, but we should try and understand why this rule 
is in place and why it has been in place for a number of years 
and why when we were in the majority we chose to keep it in 
place even though some members of our own caucus wanted to 
throw this rule over the side.
    The Chairman. As I call Congressman Bob Barr to the witness 
table, I think it is important to submit three documents. One 
is the testimony that came out a subcommittee hearing conducted 
by Congressman Lantos of California, and I think it would the 
identical meeting that Mr. Frost was just referring to. He was 
the subcommittee Chair of Employment and Housing in the old 
Government Operations Committee and they were interviewing Mr. 
Pierce at the time.
    And Mr. Lantos said, quote: "I want to thank all my 
colleagues for their comments. As we know, the Rules of the 
House presently in existence allow a subpoenaed witness to 
request that live telecasting and broadcasting of the 
proceedings not take place while he is in the witness chair. I 
fully disagree with this rule, and I have introduced 
legislation, H.Res. 253, to change the Rules of the House, 
because I believe the American people are entitled to open 
government. But, as long as the rule is on the books I, of 
course, intend to enforce the rules."
    And he went to you, Mr. Moakley, and spoke to you and Mr. 
Foley at the time, and I would ask unanimous consent to submit 
this for the record.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.012
    
    [GRAPHIC] [TIFF OMITTED] T7094.013
    
    [GRAPHIC] [TIFF OMITTED] T7094.014
    
    Mr. Moakley. Tell them what Mr. Moakley said to him.
    The Chairman. Let me finish this. Then on November 29, 
1996, which was just last year, Mr. Barney Frank of 
Massachusetts wrote a letter to David Dreier, who was Chair of 
our subcommittee, and he said:
    "Dear David, it was brought to my attention in the last 
Congress that any witness who is served with a subpoena to 
appear before Congress may request to do so without any radio, 
television, or still photography coverage. I am inclined to 
think we should reconsider this and treat subpoenaed witnesses 
as we do all other witnesses who appears before Congress."
    And, finally, let me just quote, who is this I am quoting, 
it is the Vice President of the United States.
    Mr. Moakley. Which one?
    The Chairman. Then-Representative Al Gore, when he was 
chairman of the subcommittee in 1978 and 1981. He said, quote, 
"Rule XI relating to the presence of TV cameras is one which 
the Chair personally disagrees with and will endeavor to 
change." That was in 1978.
    In 1981 he said again, "The Chair will announce that, 
notwithstanding the views of this Member of Congress and the 
views of others that this rule is unwise."
    I see a good friend, Mr. Dingell, who is going to appear 
here later on, and I have witnessed Mr. Dingell on any number 
of occasions when he would insist that the witness continue 
with the TV cameras rolling, but--just a minute, John, and you 
will be recognized--but stating that they were not sworn yet 
and, therefore, the cameras would keep rolling.
    So I think we need to remember all these things as we go 
along. And I am certain Mr. Dingell will be a witness here in a 
minute.
    Mr. Moakley. Mr. Chairman.
    The Chairman. Mr. Moakley.
    Mr. Moakley. I am so happy that you are really paying 
attention to what Al Gore says. I would hope you would pay 
attention to what he says on everything and not just on this 
one matter.
    The Chairman. If we did that, Mr. Moakley, my property 
owners would not have any property rights left at all.
    Mr. Moakley. Okay, but you may recall when Tom Lantos did 
come before the committee that I said this must be treated with 
extreme caution and pushed him to a subcommittee for more 
extensive hearings, and we never allowed that change to take 
place. Remember that?
    The Chairman. Well, let us hear the witnesses and see what 
they have to say here today.
    The first witness before us is the Honorable Bob Barr, who 
has filed legislation which would repeal that rule which I have 
spoken about earlier. Mr. Bob Barr.

 STATEMENT OF THE HON. BOB BARR, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF GEORGIA

    Mr. Barr. Mr. Chairman, it is an honor to be here before 
you and the other members of the Rules Committee to consider a 
rule that, unfortunately, we need to bring forward. The reason 
we need to bring it forward is because there is a rather 
strange rule in the House that permits certain proceedings 
before certain committees, at the request of certain 
individuals, for whatever reason possible, to exclude certain 
portions of the media from letting the public know what is 
going on in that hearing.
    Mr. Chairman, it is unfortunate that we need to bring this 
forward because, really, the hallmark, the underpinning of this 
entire Congress, from its very inception, that is embodied in 
this manual and these rules has been openness.
    Similar to other work with which I am familiar, having 
served as a United States attorney, there are certainly 
specific proceedings for specific statutory reasons reflecting 
very specific rights of individuals or of the Government at 
which that general hallmark of our Government, and that is that 
everything ought to be, insofar as possible, made public, 
because out of that public knowledge and perception of what the 
Government is doing comes public confidence in the Government 
and out of that comes strength of Government.
    But even in those circumstances, in which as a United 
States attorney I had to abide by certain court proceedings, 
rules of criminal procedure, civil procedure or grand jury 
rules, Mr. Chairman, that provide otherwise, that is, that 
provide for secrecy or exclusion of the public, it was always a 
burden on the Government to justify why an exception to the 
general rule under which our Government operates, and that is 
that the public ought to know what is gong on and the public 
has a right to know, an overarching right, the burden is always 
on the Government to make sure that the exemption fits within 
the exemption that the proposed secrecy, such as grand jury 
proceedings to protect an ongoing investigation, to protect the 
name or identity of a witness because it might endanger 
people's lives, or of course there are national security areas 
similarly, the burden is always on the Government.
    And in our proceedings also, Mr. Chairman, that certainly 
is and ought to remain the overarching and indeed the 
foundation on which we operate here, and that is the strength 
of what we do here, the public's confidence in what we do here 
is borne in large part out of the fact that what we do, how we 
operate is uniformly and consistently open to the public. And 
those circumstances under which we draw exceptions for that 
ruling ought to be very, very limited and very carefully 
circumscribed and based on a very specific requirement or right 
that supersedes that general right of the public to know what 
is going on in Government.
    The proposal that I put forward, despite some folks' 
attempt to make it appear partisan, has nothing to do with 
partisan politics. The most recent instance in which this 
particular provision of the rule was invoked involves some 
witnesses before the Government Reform Committee. It had 
nothing to do with partisan politics. I do not know which sides 
of the aisle had more or less of an interest in ensuring that 
the public knew more or less about what those witnesses were 
testifying to. It may have broken down that it really did not 
affect the Democrats or the Republican side more than another.
    The fact of the matter is, Mr. Chairman, as you have so 
eloquently indicated, the current provision that allows 
arbitrarily for any particular witness to exclude a certain 
type of broadcasting; namely television and radio broadcasting 
exclusively, and photography, from his or her testimony, would 
lead to some very strange results. You might have one witness 
on a panel who wants to do that. Does that mean the other 
witnesses on that panel similarly are circumscribed? And what 
about the public's rights to hear and see what those other 
witnesses are testifying to?
    There is no requirement that there be any rational basis 
for the assertion of this particular provision, which I do not 
believe is founded in some absolute overarching constitutional 
right of the people to appear before the Congress in secret.
    There is also, Mr. Chairman, as you have also very 
eloquently stated and referenced in the rules, there is full 
opportunity in the rules, if my proposal is adopted by the 
House, for any particular committee or subcommittee in any 
particular circumstance, where there is good reason for it, to 
exclude the media, exclude the public, in order to protect an 
important articulable circumstance or right of a witness.
    So I would very much appreciate the committee's careful 
consideration of this proposal. It is in keeping not only with, 
as the Chairman indicated, the way we started business in the 
104th Congress, but really it is consistent with the way 
Congress has always operated, and that is to the greatest 
extent possible, unless there is some very, very well-
articulated, very important, very specific reason not to, we 
operate in the public, in the open, and so that the media, all 
of the media, not discriminating against one branch of the 
media over another, which the current rules do, has the 
opportunity to let the public know what is going on.
    So I would urge adoption of this and a favorable report on 
it. It is a very limited proposal, Mr. Chairman. It does not, 
as you have indicated, do away with the full range of powers 
that our committees and subcommittees will continue to retain 
to close certain hearings for good reason.
    The Chairman. Well, thank you, very much, Congressman Barr. 
I think the record ought to show that Congressman Barr is a 
former U.S. attorney with the Justice Department; that he is 
also a member of the Judiciary Committee and a member of the 
Government Reform and Oversight Committee. We appreciate your 
knowledge and your being here today.
    Mr. Barr. Thank you, Mr. Chairman.
    The Chairman. Mr. Moakley.
    Mr. Moakley. Mr. Barr, why do you think it is necessary to 
rush this resolution through with such short notice, with such 
inadequate time to thoroughly study the ramifications of the 
rule changes?
    The Chairman. Before the gentleman answers that, would my 
good friend yield?
    Mr. Moakley. Love to.
    The Chairman. Well, Joe, I somewhat resent your implication 
that this is being rushed through. This is being considered 
under the rules of the House. Were you given 48 hours' notice, 
like you are on all legislation?
    Mr. Moakley. But how come we were not notified when other 
matters were coming up at the same time and your leader did not 
give us--
    The Chairman. If I could, I will give you a very good 
reason. It is the intent of this Member of Congress to see that 
we adjourn here this weekend, and I do not much care what else 
happens but we are going to try to get out of here this 
weekend.
    And if we are going to get out of here this weekend, then 
this rule change ought to be in place because we will not be 
back here until January 27th, and then only for a couple of 
days. We will be off for the entirety of Lincoln's birthday, 
which means we will not be down to serious business until the 
last of February.
    So that is good enough reason why we should consider this 
today. Now, Mr. Barr can answer your question.
    Mr. Moakley. You forgot one other reason, the Burton 
hearings are going to start next week.
    The Chairman. I would hope so.
    Mr. Moakley. How could he do it without television?
    The Chairman. Well, if I am sitting home in the Adirondack 
Mountains, we get television up there.
    Mr. Moakley. I hope so.
    The Chairman. And I want to see what is going on down here.
    Mr. Moakley. Now, Mr. Barr, you can answer my question.
    Mr. Barr. Mr. Moakley, thank you, and of course all I can 
do, and I would never be so presumptuous to speak for yourself 
or any other member of the committee as to why the committee 
elects to take certain action, all I can do, respectfully, is 
submit my rule change, my resolution.
    I believe it is important to address this. I appreciate a 
prompt hearing by the committee. I wish all our committees 
operated as promptly and responsive to Members' wishes as this 
one does.
    Mr. Moakley. You have used the word "secrecy" and "closed 
hearings." Not allowing television or radio in there does not 
close the hearing down, and there is not secrecy. Those people 
can sit there like anybody else and take notes down. The only 
thing this stops them from is taking pictures and hearing 
sound. So it is not secrecy. It is still an open hearing; would 
you agree?
    Mr. Barr. It is sort of strange the way it does it, 
because, for example, you are absolutely correct, members of 
the printed media can stay in there, members of the public can 
stay.
    Mr. Moakley. TV reporters can sit in there but they cannot 
come in with cameras.
    Mr. Barr. But the cameras, the microphones and the lenses 
have to be covered.
    Mr. Moakley. That is right, but the people who staff them 
can write and read and do everything else.
    Mr. Barr. Which raises the question, why have the rule? It 
is sort of a halfway rule anyway.
    Mr. Moakley. As a former States attorney, you know that 
under questioning even the most straight, honest citizen can 
appear guilty because he is sweating and stuttering and 
stammering, and I think the television camera has a chance to 
do an awful injustice on a person who is appearing 
involuntarily before that committee, against his will. I think 
he should at least have the right that is prescribed to him in 
the rules of having no television or radio coverage.
    Mr. Barr. I do not, frankly, think it is the television 
camera that intimidates the witness, I think it is the 
badgering by certain members of the committee, which I have 
seen before. That may be more of a problem than whether the 
camera exists.
    Mr. Moakley. And these witnesses will not be badgered by 
anybody in these hearings?
    Mr. Barr. They are, but it has nothing to do with whether 
the cameras are there. It is the badgering by certain Members 
that causes a witness to sweat.
    Mr. Moakley. What if a witness is an informer about 
organized crime and he comes before the committee and he is on 
television. That does not exactly increase his life-span.
    Mr. Barr. And that is why we now have and would continue to 
have under my proposal, even if it was adopted, very adequate 
remedies to protect against disclosure.
    I was at a subcommittee hearing just 2 weeks ago in which 
we had a person from Colombia that appeared before the National 
Security Subcommittee under just those circumstances, and we, I 
hope, maintained very adequate protection for her identity.
    The Chairman. Would the gentleman yield at that point, just 
to cite the existing House rule even after we repeal this one?
    We can still close the meetings for national security 
information, sensitive law enforcement information, information 
that would tend to defame, degrade, or incriminate any person 
and information that would violate any law or rule of the 
House.
    Mr. Moakley. After a vote of the committee. After a vote of 
the majority of the committee.
    You still are taking away that American citizen's rights. 
And what we did today to chastise the IRS because of their 
overzealous agents, I think would be a prime example of why we 
should not rush ahead on something like this.
    The Chairman. Mr. Moakley, could I just show one reason why 
we could? You seem to think the written news media always 
reports exactly what happened and what transpired.
    Mr. Moakley. I never said that.
    The Chairman. Wait a minute, let me show you a headline 
here. Says "Clinton Labels Tax Cut Selfish." Now I do not know 
whether he really said that or not. That is a pretty absurd 
statement, but I am sure if the people watching it on 
television saw him say that, they would understand it. And that 
is why we have such a large viewing audience for C-SPAN these 
days. The American people like to see what is going on here.
    Mr. Moakley. Where are they tonight?
    The Chairman. You probably did not want them here.
    Mr. Moakley. I did not have a thing to do with that, you 
are the one that calls them.
    The Chairman. Go right ahead.
    Mr. Moakley. I am all done.
    The Chairman. Mr. Dreier.
    Mr. Dreier. Thank you very much, Mr. Chairman.
    I will say, having been the recipient of that letter Mr. 
Solomon referred to from Mr. Frank, this is an issue we have 
spent a great deal of time thinking about and, obviously, I am, 
as is Mr. Moakley, concerned about the rights of those 
witnesses. But it does seem to me that the operative words here 
are certain members of the media, and I do not like the idea of 
discriminating against one media source over another. So I 
think that that is something that does clearly need to be 
brought into the mix.
    Second, I do believe that there are protections here, and 
while Joe continues to raise this issue of a majority of the 
committee, I have some degree of confidence in the 
levelheadedness of Members of this institution. I will admit 
there are some who may have a tendency to shoot from the hip on 
occasion, but I believe that if there are very justifiable 
concerns that are raised that going into executive session to 
address issues of concern, if a member of the Minority were to 
come to me and talked about a very, very compelling concern 
that existed on his part of a certain witness, assuming that it 
is a Democrat, and gave reason to go into executive session and 
say that the print and electronic media should not be there, I 
would be more than willing to entertain the arguments that are 
brought forward.
    Mr. Moakley. Would the gentleman yield?
    Mr. Dreier. Be happy to yield.
    Mr. Moakley. The print and electronic media can be there 
but they cannot use the radios and television. They can be 
there like every other print reporter to take it down.
    Mr. Dreier. But if we were to vote to go into executive 
session is what I am saying, if that decision were made.
    Mr. Moakley. I am glad you would feel so good for the 
Minority, but just, for instance, if a witness came before this 
committee, four Democrats and nine Republicans, how many votes 
would I win?
    Mr. Dreier. I told you I would entertain it.
    Mr. Moakley. You may entertain it but you may not vote for 
me.
    Mr. Dreier. Well, let me just say that I think there 
clearly is an opportunity for--
    Mr. Moakley. There is always an opportunity.
    Mr. Dreier. That is right and the interests of the Minority 
to be heard on this. So I think we are moving ahead in a very 
responsible way.
    The Chairman. Any further questions of the witness?
    Mr. Moakley. Mr. Chairman, I have one question.
    The Chairman. Mr. Moakley.
    Mr. Moakley. You are a Federal prosecuting attorney?
    Mr. Barr. Former U.S. attorney.
    Mr. Moakley. How many cases did you try that were 
televised?
    Mr. Barr. Well, the trials are not televised in Federal 
Court.
    Mr. Moakley. Thank you.
    The Chairman. Any other questions of the witness?
    If not, Bob, we certainly appreciate your coming and giving 
us your expertise. Thank you again.
    Mr. Barr. Thank you, Mr. Chairman.
    The Chairman. And now we will have a panel of three of the 
most distinguished Members of this body. One is the dean of the 
entire House, John Dingell of Michigan, along with Henry Waxman 
of California, Barney Frank of Massachusetts, and is the 
gentleman from Pennsylvania here to join that panel?
    By all means, Mr. Kanjorski, if you would come forward. I 
do not have you on my witness list, but you are always welcome. 
If the four of you would come forward. And if there are only 
two of you, I am sure you can hold your own.
    Mr. Dingell, since you are senior to everybody, you may 
feel free to submit your entire statement for the record, but 
you can summarize and you may take as much time as you would 
like, sir.

  STATEMENT OF THE HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. Thank you, Mr. Chairman. I was about to ask 
unanimous consent that I be permitted to insert my full 
statement for the record and that is entirely acceptable to me.
    Mr. Chairman, for the record, I am a former prosecutor. I 
have engaged in fairly extensive private practice of law 
handling all kinds of cases. I have been a Member of Congress, 
as you have noted, for 41, almost 42 years. I have run probably 
as many congressional investigations as any man in this room or 
indeed in the Congress and have had a remarkable record of 
success in those investigations.
    I tried my first lawsuit before I was 20, when I was a 
second lieutenant in infantry and was assigned the task of 
defending an individual as defense counsel, and I have had, as 
I mentioned, not inconsiderable experience with the practice of 
law and protection of the rights of citizens.
    I would observe that there have been two very divisive 
periods in my kind of service in the Congress, one was the old 
McCarthyite era and the other was the Vietnam time. The time 
when Joe McCarthy and others committed some grotesque excesses 
in their congressional investigations struck me very hard. When 
I became the Chairman of the Oversight and Investigations 
Committee, I became very aware of the need to protect the 
rights of people, and one of my major concerns was to see to it 
that although we ran hard, tough, fair and vigorous 
investigations, that we did not commit any of the abuses which 
I had found to be so appalling.
    And so we had two rules that we applied, one was that we 
had to be fair and the other was we had to appear fair, because 
I did not want anybody likening me to the things I had seen 
during the days Joe McCarthy was handling matters, and when 
Members of this body were doing the same kind of things, I will 
not mention their names, but they are not revered today and 
should not be.
    And we have dealt with the rule that this committee would 
seek to repeal. We never found it inhibited the investigations. 
We never found that it inhibited the media knowing fully what 
was going on.
    The rule that you cited, Mr. Chairman, with regard to the 
closure of the meeting, going into executive session, we have 
used, too. We never found that that inhibited the committee in 
its investigations and we never found that it ever inhibited 
the public in knowing what the committee was doing. We found 
that the public was able to be fully informed by the press.
    To give you an example of what transpires when a witness 
comes in under the rule that we are discussing repealing, the 
witness has to come into the committee room. As he enters, he 
is subject to being photographed by the still cameras and by 
the television cam- 
eras. As he moves forward to his place at the witness table, he 
is again subject to being photographed because he has not yet 
had the opportunity or the time to invoke his rights. And at 
the proper time, he has the right to insist that the cameras be 
turned off, the loudspeakers and the microphones be turned off 
and that the still cameras be shuttered. Prior to that time, he 
is subject to being photographed at any time.
    When he concludes his testimony he is again subject to 
being photographed as he departs from the committee room, as he 
goes outside the Capitol, outside the room and the building 
where the committee is sitting. The members of the press have 
full opportunity to, and the media have full opportunity to 
take down any of the words which he says during the time that 
he is there and to also quote in full the remarks of the 
witnesses, of other witnesses, and also the questioners and 
Members of the Congress or the committee counsel who might be 
inquiring of this witness as to his behavior or for whatever 
matter.
    Mr. Dingell. I think that in the numerous occasions where 
this rule was invoked, and I always respect it, and I respected 
it assiduously, no witness was ever handled in such a way that 
the media and the public didn't full well know everything that 
went around, and the 5:00 and the 6:00 or the 7:00 or the 10:00 
or the 11:00 news or the 7:00 news, the next morning always had 
full access to a full array of pictures which were taken 
showing the individual and quoting from his testimony in the 
proceeding.
    I don't know how many in this room have participated in 
congressional investigations, but they are a rather scary 
event. You are up there very much alone. You may have a counsel 
present, but that counsel can only advise you as to your 
rights. He can't defend you. And the rights that you have in an 
appearance before a congressional committee are far less, far 
less, than the rights that you have when you appear in court.
    A Member of Congress under the speech and debate clause can 
say almost anything he wants to you. He can abuse you. He can 
make some of the most scandalous and outrageous charges. He can 
deny you the real right to respond to the questions and answer 
it; charges that are made in his comments to you, about you. It 
is terrifying and it is ofttimes a demeaning experience.
    The rule that you cited, Mr. Chairman, is a good rule but 
it doesn't go very far. And it is a rule upon which the 
individual who appears before the committee is entirely 
dependent, not on his--on his assertion of his rights, but upon 
the whim and the caprice of the committee, which may choose to 
afford him the judgment that he is about to be defamed or 
degraded or to come to the conclusion he ain't. And that is 
their absolute judgment, not subject to appeal.
    I had a number of people before the committee. As I said, 
in the investigations we always afforded them full protection 
of this right. We never found it inhibited us in the slightest 
in arriving at the truth. And one thing else, we found that it 
also gave us the appearance of fairness and it enabled us to be 
fair. So it was not a rule which in any way inhibited the 
committee from carrying out its proper responsibilities or 
doing that which was right and important in terms of our duty 
to gather the facts, to lay the basis for law, to find 
wrongdoing, to see whether or not other public officials are 
properly carrying out their responsibilities.
    My good friend, Mr. Moakley, mentioned that two 
distinguished Republicans, Mr. Scott and Mr. Javits, both 
Members of this body, Members of the Senate, found that it was 
necessary for the Congress to have a rule of this kind for 
protection. Sam Rayburn was quite outraged about events which 
occurred, and he became supportive of the idea that the rules 
should be changed to protect the rights of witnesses who appear 
against this kind of thing. And it all stemmed from, in part, 
an awareness about a witness who killed himself because he 
didn't want to be photographed before, on television.
    I don't think that, as I mentioned, the system that we have 
inhibits us from doing a thorough and a careful and a proper 
job investigating. But I wonder how many of us want to have 
that kind of consequence upon our souls. There are some who 
probably wouldn't find it at all troublesome, but I think I 
would, and I think everybody in this room would.
    I remember on one occasion we called Michael Milken before 
a hearing. He was accompanied by his attorney, a very great and 
famous attorney by the name of Edward Bennett Williams, a very 
close and dear friend of mine. In fact, he was a former law 
school professor of mine in criminal law. He was a man that I 
not only very much loved, but deeply respected. And at the 
appropriate time, on his attorney's advice, he requested that 
the cameras be turned off, which I immediately ordered.
    Mr. Williams made a simple point, and it was propounded in 
his book, which he wrote in 1962 entitled, "One Man's Freedom." 
And he said this: The average person is extremely nervous when 
he appears before any court or committee. It is unfair to ask 
him to appear before the entire country as well.
    I am not quite clear why it is that there is this terrible 
rush towards this change in the rules. I am not aware of any 
business that is going to require us to rush to this kind of a 
change. I am not aware of any great public need, and speaking 
as one who has probably conducted more investigations than 
everybody else in the room here together, I can tell you that 
it has never inhibited us in either informing the people or 
conducting the business of the House or carrying out a proper 
and a successful investigation.
    I think that if you look at it in that way, you are not 
protecting the rights of criminals. You are protecting the 
rights of citizens, citizens who have not been convicted of any 
crime. Indeed, not been charged with any particular kind of 
wrongdoing, appearing before perhaps one of the most terrifying 
institutions in this country, a congressional investigating 
committee, one whose powers to abuse and to destroy the name 
and the good name, the reputation, the rights, the opportunity 
of an individual even to defend himself, are no less in many 
particulars than the Court of Star Chamber or the Spanish or 
the Portuguese Inquisition.
    I don't think that to make this change is going to make it 
easier for us to investigate here in the Congress. I think it 
is going to make it a great deal easier for us to abuse people, 
a great deal easier for us to create a situation where the 
public will ultimately feel the kind of revulsion they did of 
the sort of excesses I described in the days of Joe McCarthy or 
Parnell Thomas or some of the other people like that who 
brought real, real distrust and disgust and distaste down on 
this body.
    I would urge you not to do this. It isn't going to benefit 
us. There is no need. There is no help to be achieved for us in 
carrying out our mission, but we are going to tamper with and 
hurt the good name of this body and each and every one of us 
here if we take this step. We are not going to benefit the 
press. We are not going to benefit the country. We are not 
going to better inform the people. And we are not going to hurt 
only wrongdoers. We are going to hurt a lot of innocent people 
who are going to be destroyed in many different ways by 
committees which will commit excesses because there is 
literally no limit on the awesome and awful and terrifying 
power of a committee of a Congress when it is engaged in these 
investigations.
    I beg you for your sake, for my sake, and for the sake of 
this institution, do not do this thing.
    [The prepared statement of Mr. Dingell follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.015
    
    [GRAPHIC] [TIFF OMITTED] T7094.016
    
    The Chairman. John, thank you very much. And now, Mr. 
Kanjorski.
    Mr. Kanjorski. Mr. Chairman, the power--
    The Chairman. Your entire statement will appear in the 
record without objection as well

 STATEMENT OF THE HON. PAUL E. KANJORSKI, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Kanjorski. Thank you. The power of the subpoena is an 
extraordinary constitutional power. I know of no other greater 
power exercised either by the courts or the executive branch of 
government. It was given the representatives of the people 
because at some time the public's need to know and the people's 
representatives need to know, properly legislated, passes over 
rights of individuals.
    And so in the Constitution, when that right was placed in 
our hands, I think we should exercise it with extreme caution. 
I worry about the request of Mr. Barr because I think it is an 
exercise of the power of the Majority to accomplish a very 
short partisan or political end or gain.
    I know from what experience Mr. Barr's request comes. 
Recently, before the Government Reform and Oversight Committee, 
we had three witnesses that exercised their privilege of 
requesting the cameras be turned off. I took part in the 
examination of those witnesses.
    Quite frankly, although I did not agree at the time that 
that privilege should have been exercised or would I have 
supported the exercise of it, I have got to tell you that I am 
glad they did. One of those witnesses testified to something 
that he knew an individual delivered money to him on a certain 
day and a certain place in California, and yet we had six or 
seven pieces of almost incontrovertible evidence that that 
individual was in New York City.
    So you had such a factual difference that was incredible. 
In attempting to determine whether this witness was telling the 
truth or maligning the individual that we thought and still 
think was in New York, we came down very heavily on him. I, for 
one, reminded him what perjury meant because I knew about what 
appeared to be incontrovertible evidence.
    To this day we are not absolutely certain because we are 
still getting evidence, to prove the precise time that the 
individual testified, of him being in California when he was, 
in fact, in New York. But I wonder, if we are wrong, what would 
we have done to that individual. The whole world would have 
seen the Congress of the United States or a good portion, 
represented by that committee, coming down very heavily on a 
witness. The poor witness maybe honestly misunderstood who the 
individual was that gave the money.
    I do not have any doubt that he was given money. It was a 
question of identity. But his reputation, and his name would 
have been ruined. Now, if he hadn't the right to exercise the 
privilege of having the cameras turned off, regardless of the 
final conclusion of the facts, his life would be, for all 
intents and purposes, ruined.
    I think what we are dealing with is the idea of whether or 
not we should take into consideration the rights of individuals 
that we call before us under an extraordinary constitutional 
power. Now, as my good friend and colleague from Michigan has 
pointed out, the history of this rule goes back nearly 50 years 
when this Congress experienced a man committing suicide sooner 
than subjecting himself to what he called assassination by 
publicity. In his mind, it was sufficient.
    You know, most recently, we had a member of the White House 
staff who did take his own life and in part of his note that he 
left for all of us to ponder on, he said here, speaking of 
Washington, ruining people is considered sport.
    Those of us who are in public life have been hardened to 
the rights of privacy and secrecy and privilege just being 
average citizens. We sometimes think that all of the citizens 
that we represent have a right to be badgered, lied about, 
rumored about, and innuendoes circulated about. Maybe our 
hardened nature allows us to pursue these public positions, but 
average citizens consider their privacy, their integrity, their 
family reputations and their private business to be their 
rights that we should protect.
    I think this rule runs directly into that problem. If this 
Congress is likely to accomplish some purpose in the hearings 
between now and when the Congress comes back from recess, where 
deliberation could be held as to what we want to do, if we just 
move in for the purposes of a few congressional hearings to 
accomplish what end I do not know. It certainly will not affect 
an election. It certainly will not establish any facts that are 
prosecutable. It probably will destroy a lot of people or at 
least add a great deal of embarrassment to them. If that is the 
purpose of this rule change, I do not think that is a 
sufficiently deliberative and thought-out purpose.
    I would think that at the very least, we should examine 
into what has happened that caused this, and how it can be 
rectified. I want to call your attention to several points. Mr. 
Barr made the point in response to Mr. Moakley that he was a 
prosecuting attorney and they do not have a television camera 
in a courtroom in the Federal system. They do not have it in 
the Supreme Court deliberative chambers, which are important to 
all Americans. Why would Americans not like to know how a case 
is decided?
    They do not have television cameras in the Oval Office. I 
think the Congress of the United States is a very open body, 
and when people say that things are done in secret, that is not 
true. A congressional hearing, as my good friend from Michigan 
pointed out, is a public hearing. There is a transcript and a 
record. The only thing it does not have is the ability to put a 
face and words on a living screen that can go to tens of 
millions of people, the image never to be called back.
    The instantaneous ability through modern science and 
technology to ruin an individual is the question we are really 
faced with here.
    How do we interface with this new technology in a 
parliamentary democratic system?
    I am not sure, but I certainly do not think that the right 
of an individual that has been protected by precedent and by 27 
years by rule should be summarily changed in 48 hours. I see no 
reason for that.
    I find that there will be a disturbing negative impact if 
this rule is passed. If I were a counselor and I had a witness 
who was subpoenaed before the Congress of the United States, I 
would encourage that witness to examine every potential 
possibility that he could legitimately plead the Fifth 
Amendment. If a witness under subpoena does that, you receive 
neither a picture nor a testimony that can injure that witness.
    Some can say, that can be overcome because the Congress can 
grant immunity, and I would agree with you. But immunity does 
not require a simple majority of the committee; It requires a 
two-thirds vote of the committee. Therefore, you will have to 
have a participation in most instances of the Majority and the 
Minority coming to a reasonable conclusion that that action 
should be taken. That supermajority, at the very least, should 
be a portion of this rule, that an individual would have a 
right to request the permission of cameras and recordings be 
turned off. However, his privilege or asserted privilege or 
right could be reversed if two-thirds of the member of the 
committee thought it so important that he be pictured live. At 
least that would protect the Majority and the Minority, and for 
all intents and purposes, take it out of a partisan or 
political consideration.
    I do not know and have not had the time to examine this 
case law, Mr. Chairman, but I seem to think that Solomon versus 
New York Times says that if you become a celebrity, you lose 
certain liable and slander protections under the law. Of 
course, we know there is immunity for testimony before the 
committee, but if a witness is called to testify before the 
Congress, it would seem to me that he becomes a public 
celebrity.
    At that point, that image recorded and reproduced a 
thousand times for a thousand days will subject him to all 
kinds of embarrassment, can be made a ridicule on any 
television program, or can be reproduced in the newspapers, all 
to his great detriment. That image can not be made to the 
service of enlightenment, not to the service of legislation, 
but we now take that private individual and make him a public 
property to be exposed to all kinds of things without any of 
the protections of the law. The Supreme Court, and I think for 
good reason, saw the protection of the first amendment and 
ruled in Solomon versus New York Times that public individuals 
could not just sue; they would have to have a standard which 
the libeler or slanderer violated.
    Now, I would make this final point. We have had two recent 
trials in the United States. One is the murder trial of O.J. 
Simpson. There is not an individual in this room that could 
identify the photograph of a member of the jury of the O.J. 
Simpson case. I think that situation was properly handled.
    Most recently, in Massachusetts, in the case of a young 
lady tried for murder, again, the jury was sequestered from the 
observation of television and the public.
    I would think we would have to ask the reason why, and I 
think it is very simple: If you become controversial or 
involved in a controversial idea, you are subject to social and 
political retribution. I do believe that many of the witnesses 
that are subpoenaed before the committee are coming here 
against their will. These witnesses have no desire to be 
subjected to such process, but under the Constitution are 
forced to come there to provide a greater benefit to the 
society as a whole. Now the minimal protection that this House 
50 years ago granted individuals is to be summarily ripped out 
from its roots to satisfy political desires over the next 60 
days. I believe this change is being done for a partisan 
political purpose.
    I would agree with Mr. Moakley's questions of why should a 
deliberative body not deliberate when fundamental rights of 
American citizens are at stake? Can anything be so compelling 
in these hearings before the Government Reform and Oversight 
Committee that we should dismiss and run to judgment on 
revoking a rule that has existed in principle and, in fact, for 
50 years to the great protection of the American people?
    I would urge the committee, one, not to return this 
resolution to the House; and two, if we differ, and reasonable 
people can, to at least provide for a bipartisan, nonpolitical 
purpose that the right can be asserted and only reversed if the 
same vote carried that would carry on immunity. In that 
instance, at least it would require something more than an 
emotionally charged Majority with denying or running amuck on 
Minority rights and individual rights.
    I urge you, as a person who has taken part in all of these 
hearings, there is absolutely no good reason to subject many of 
the decent and innocent people that will be called before the 
Government Reform and Oversight Committee to something more 
than just being examined by Congress but, in fact, to be 
embarrassed in their community.
    I would suggest there are many other people that would not 
want to come before the committee. Those that are in the 
Witness Protection Program may not even have the ability to 
tell us that they are in that program. The location of people 
who are subject to abuse, is then known. Some people may get 
financial retribution if they appear in public. All of these 
things are casting aside in a big net and we are just saying 
for purely political and partisan purposes to the American 
people, we just do not give a damn about your rights. And I 
think that is wrong.
    [The prepared statement of Mr. Kanjorski follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.017
    
    [GRAPHIC] [TIFF OMITTED] T7094.018
    
    [GRAPHIC] [TIFF OMITTED] T7094.019
    
    [GRAPHIC] [TIFF OMITTED] T7094.020
    
    [GRAPHIC] [TIFF OMITTED] T7094.021
    
    The Chairman. Let me just respond to Mr. Kanjorski first 
and then pose a question to Mr. Dingell.
    But, you know, you are one of the most respected Members, 
seriously. I say that about a lot of people, but you are, and I 
consider you a friend, and I know everything you said was 
sincere, but it bothered me when you sort of inferred that this 
committee was doing this for political expediency, political 
reasons, and that bothers me.
    Mr. Kanjorski. Mr. Chairman, I certainly do not want to 
imply what this committee is doing. I understand this is being 
put forward by a Member of the House, not this committee.
    The Chairman. Well, it has been put forth through a member 
of the media, Mr. Vic Ratner, who you all know. I mean, he has 
notoriety and he has requested this of this committee a number 
of times and just recently about 3 weeks ago.
    But let me tell you what I think. I do not get too excited 
about campaign finance violations. I know these are serious 
matters, but I tell you what I do get excited about, and that 
is economic espionage that hurts jobs in my district. I get 
excited about national security breaches and I get excited 
about foreign countries, particularly those that I don't like, 
who have a philosophy which I think goes against everything I 
believe in, and that is the People's Republic of China trying 
to influence this government. Those things excite me, and I get 
mad.
    Mr. Kanjorski. Mr. Chairman--
    The Chairman. Let me finish. Just a minute now. And, 
therefore, if this Congress is going out of session in the next 
4 or 5 days, which I expect it to do, I would hope that we 
would be able to make this small change.
    Now, having said that, let me ask a question of John and 
then you can respond. John, you mentioned that you were not 
inhibited by this rule in any way.
    Mr. Dingell. We were never in the slightest degree 
inhibited. I know of no other committee which has in any way 
been inhibited.
    The Chairman. Okay.
    Mr. Dingell. I am unaware of any member of the media who 
has been inhibited in gathering all the facts and all the 
information he needed. I know of no citizen who has ever been 
denied the fullest possible information on citizens who invoke 
this rule, or on proceedings in which this rule was invoked.
    The Chairman. Has any Member--
    Mr. Dingell. I am totally unaware of any need for doing 
this.
    The Chairman. To your knowledge, has any Member of the 
Senate ever been inhibited by this rule?
    Mr. Dingell. This rule does not apply in the Senate. This 
is a House rule.
    The Chairman. So the rule that we are attempting to repeal 
does not exist in the Senate?
    Mr. Dingell. I don't know what the Senate rules provide. 
All I know is the Rules of the House, and I know why they are--
I know why those rules are here. They are here because of some 
rather extraordinary abuses, most of which took place in the 
Senate, but some of which took place here.
    The Chairman. The point--
    Mr. Dingell. That brought great opprobrium and great 
disgust upon this body and upon that body and upon those who 
abused the rights of citizens in the proceedings which 
triggered the creation of this rule.
    The Chairman. The point I was trying to make is that this 
rule does not exist in the Senate.
    Mr. Dingell. I don't know whether it does or doesn't.
    The Chairman. And it has gone without incident for many, 
many years now, as long as you have been in this Congress. So 
what we are attempting to do is to conform this rule with those 
of the Senate.
    Mr. Kanjorski.
    Mr. Kanjorski. Mr. Chairman.
    Mr. Dingell. Are you prepared to conform every rule in this 
body with the rules of the Senate? Is that such an important 
goal?
    The Chairman. No. I am just making a factual finding.
    Mr. Kanjorski. Mr. Chairman, unlike my colleague in the 
Senate, Mr. Torricelli, that was present at some hearings 8 
days before he was born, I can recall the McCarthy Army 
hearings. I sat there. I served as a page in those hearings and 
I saw many individuals' lives ruined in the course of those 
hearings and during the course of that whole era. There are 
still American citizens that have lost their productive years 
in capacities because they were in some way indirectly or 
directly associated, sometimes improperly so, with communism. 
They have never recovered from that.
    I think for us to cite the Senate and when we go back to 
McCarthy hearings as justification for not having protection is 
foolhardy. If ever a body does need a protection, it is 
certainly the Senate. But I understand that is based on each 
committee's decision on itself according to the rules. In the 
Senate, there is such a thing as comity which the House in most 
recent time has lacked, as you know. The comity I sometimes 
think exists in the Senate because the Minority is able to tie 
the Senate up for considerable periods of time. In the House, 
the Minority does not have that protection.
    The Chairman. Mr. Moakley.
    Mr. Moakley. No, I just appreciate the testimony. I, too, 
remember the McCarthy hearings and, in fact, Joseph Welch, the 
great lawyer, was from my hometown. It was masterful, but 
absent him that thing could have destroyed many, many more 
people and it was the--well, they have even had movies about it 
and many times on PBS shows that would run the trials and it 
was terrible. Just the possibility that that could happen again 
should be enough not to change the rules we have got now.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Moakley.
    Mr. Dreier.
    Mr. Dreier. No questions.
    The Chairman. Mr. Goss.
    Mr. Goss. No questions.
    The Chairman. Any questions of the witness? If not, 
gentlemen, we appreciate your coming. As usual, we respect your 
opinion. We may not always agree with it.
    Mr. Dingell. Well, we have no great hopes that we have 
convinced anyone, but I think history will, Mr. Chairman.
    The Chairman. You are very convincing, John. You always 
have been.
    Mr. Kanjorski. Mr. Chairman, I would appreciate if the 
committee would consider the two-thirds protection rule. This 
rule is going to last a long time in this Congress. Many 
Members are going to come to serve after we have been here.
    The Chairman. We appreciate your coming, sir.
    The next scheduled witness is Mr. Stanley Brand, the former 
House counsel of the U.S. House of Representatives. Stanley, if 
you would like to come forward. And, again, you have, I think, 
testified before congressional hearings before.
    Mr. Brand. Yes.
    The Chairman. You are familiar with the proceedings.
    Mr. Brand. I am.
    The Chairman. You may summarize. Your entire statement will 
appear in the record without objection.

STATEMENT OF STANLEY M. BRAND, FORMER HOUSE COUNSEL, U.S. HOUSE 
                       OF REPRESENTATIVES

    Mr. Brand. Thank you, Mr. Chairman.
    The Chairman. Would you withhold for just one minute?
    Mr. Brand. Yes.
    The Chairman. Mr. Brand, if you would like to continue, 
sir.
    Mr. Brand. Mr. Chairman, thank you. One of the staff was 
reminding me about the last time I was testifying in this room 
was actually after the one House veto case which I argued and 
lost in the Supreme Court. So I give that as a disclaimer. I 
don't know if you want to listen to what I have to say now, but 
I offer it in any event.
    The Chairman. Mr. Brand, don't think I am leaving because 
you said that. But I have to take a phone call in the other 
room.
    Mr. Brand. Sure.
    The Chairman. Mr. Dreier will take over. I will be right 
back.
    Mr. Brand. I can't really improve on either the history or 
the basis for the rule that Mr. Moakley gave in his opening 
statement or that Chairman Dingell, former Chairman Dingell, 
gave when he was here.
    What I would like to do is zero in on a couple of points, 
if I could, and add maybe some practical legal reasons why I 
think this rule, as presently constituted, is a good idea.
    The first of those revolves around the fact that in the 
modern era what has come to pass is the phenomenon known as 
parallel investigations. Nothing gets investigated anymore by 
one agency or by one committee. There is a tendency for each to 
pursue its own jurisdiction, so that you have simultaneously 
proceeding congressional investigations and hearings, 
Department of Justice investigations and hearings and State and 
Federal agency investigations.
    To the extent that the rule tamps down the pretrial 
publicity that surrounds many of these parallel proceedings and 
denies to witnesses later claims that the public has been 
inflamed and that their ability to get a fair trial, given 
televised hearings on the same subject matter, I think the rule 
does serve a salutary legal purpose. There is a famous case 
involving ironically, in light of the discussion in the 
committee tonight, an IRS agent called Delaney versus United 
States.
    Delaney was under criminal investigation. He was 
simultaneously called and indicted and called before a 
congressional committee. The committee refused to desist until 
the criminal trial proceeded. He was convicted and his 
conviction was reversed, because the Court of Appeals said that 
the pretrial televised publicity surrounding his case denied 
him a nonprejudiced jury.
    Had the television rule existed at that time, that was in 
1952, before the enactment of the current rule, it could well 
be that a court would not have found that that tainted and 
infected the proceeding and that, in fact, his conviction could 
stand. That is at least one example of the way in which I think 
the rule can have a beneficial effect on the congressional 
proceedings themselves, by not allowing a defendant's attorney, 
the defendant himself, to use the publicity generated by the 
congressional hearing as an excuse for avoiding his conviction.
    We have seen in recent hearings just concluded in the 
Government Affairs Committee in the Senate that one essential 
element of proceeding effectively in the Congress is that the 
people who are subpoenaed have due regard for the powers of the 
committee.
    When the people against whom these subpoenas are directed 
perceive that the power is being unfavorably applied, it can 
have serious consequences. In that case, a broad array of 
groups across the--across the political spectrum resisted 
subpoenas that were issued by the committee, forcing the 
committee to either forego compliance or narrow its request.
    I think rules like clause 3(f)2, under Rule 11, have served 
as a bulwark for fairness to witnesses. As former Chairman 
Dingell indicated, the witness really has very, very few rules 
that he can mandatorily invoke. He has many rules that, as a 
matter of discretion or act of grace, the committee can confer 
on him.
    His role of counsel is limited. He can't cross-examine 
witnesses. He can't appeal from overrulings of objections. He 
is really very seriously limited. The one thing he can do with 
absolute certainty is shut off the TV cameras in connection 
with a highly charged and volatile committee hearing.
    And the last point that I would make on that is that if you 
look at the history of the hundreds, literally hundreds, of 
congressional oversight hearings that have occurred since the 
beginning of the republic, somewhere I read one time in the 
realm of 700 or 800, I think we could count on one hand the 
number of witnesses who have been able to invoke this rule or 
who have even decided it was in their interest to invoke the 
rule.
    This is not a rule that a lawyer can easily advise a client 
to invoke. There is public opprobrium oftentimes associated 
with advising a witness, as I did, in the Marcos investigation, 
to invoke this rule. It engages the ire of the media who 
literally chased the witness and I down the hall through the 
caverns of the Rayburn Building screaming and yelling, how dare 
we turn off the TV cameras. And it also sets up the witness for 
the sense that somehow they may have something to be concerned 
about or hide. Why else would they turn off the cameras?
    So it is not an automatic knee-jerk reaction that every 
client in every situation wants to turn off the television 
cameras. It is reserved for those few and far between cases, 
where the witness, as the legislative history of the rule 
indicates, has a serious, serious question about whether he can 
get a fair hearing in light of the sometimes disruptive and 
distracting element of TV coverage.
    I think at this time in our history, Congress--and I speak 
of this as a person who believes in the Congress, having worked 
here for 8 years as counsel and defended it in court, it 
doesn't need another reason to give to its detractors to 
disrespect it and in some cases to actually disobey its 
processes. I think it is a rule that has served well in those 
narrow few cases where it has been used and has been pointed 
out does not inhibit or stop a congressional committee from 
doing its constitutional duty.
    [The prepared statement of Mr. Brand follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.022
    
    [GRAPHIC] [TIFF OMITTED] T7094.023
    
    [GRAPHIC] [TIFF OMITTED] T7094.024
    
    [GRAPHIC] [TIFF OMITTED] T7094.025
    
    [GRAPHIC] [TIFF OMITTED] T7094.026
    
    [GRAPHIC] [TIFF OMITTED] T7094.027
    
    Mr. Dreier [Presiding.] I appreciate your perspective.
    Mr. Brand. Thank you.
    Mr. Dreier. Mr. Brand. That's very helpful.
    Mr. Moakley.
    Mr. Moakley. Stan, great job. Right on point.
    Mr. Brand. Thank you.
    The Chairman. Mr. Goss.
    Mr. Goss. I am sorry. I am very puzzled by that. It seems 
to me you build credibility when you have government in the 
sunshine. You are talking about a fence of somebody who is 
subpoenaed here, and the disruption of the television. And I 
don't see that a well-run hearing creates a disruption of a 
proceeding.
    Now, if you are going to tell me that if this rule changes 
and we are going to stop grandstanding by Members of Congress 
in front of TV or something, I might be persuaded that you make 
a very good point, right on target. That might do it. There is 
probably some evidence for that.
    But I am having trouble trying to figure out, since the 
other protections are already there, the national security 
protections, somebody can take the fifth, you know, you go 
right down the line, the personal protections and the 
constitutional protections, what we are doing--I am trying to 
find out why it is that we enhance our credibility as an 
institution by saying we don't want the public to see this.
    Mr. Brand. Well, as has been pointed out, Congressman, the 
public--they are not seeing it contemporaneously on TV. It is 
being transcribed. The press is able to--
    Mr. Goss. It is being spun, too, I am sure.
    Mr. Brand. It is being transcribed. It is available for 
anybody who wants to sit and listen. It is not a secrecy rule. 
It is simply a rule that requires the television cameras be 
shut off, not that the hearing be conducted in executive 
session.
    Mr. Goss. Yes, but that's the radio, and, you know, this is 
the watchdog of government out there being told they can't do 
their job. It seems to me you create a bigger problem for your 
witness, such as you have described being chased down the hall. 
Surely you got more publicity being chased down the hall than 
you would have gotten from straightforward answers in a 
committee room.
    I would be happy to yield to Mr. Moakley.
    Mr. Moakley. Will the gentleman yield?
    The TV media and radio aren't precluded from coming into 
the hearing room.
    Mr. Goss. Right.
    Mr. Moakley. And writing their notes down. They get 
pictures of the witnesses coming in, pictures of them going 
out. They can spin their entire story on TV so they are really 
not--it doesn't preclude them--it doesn't freeze them out of 
the process. The thing is that, you know--you are a former 
agent of the CIA. You know that when a person is brought before 
a legislative committee, he can be the toughest guy in the 
world but he is going to start sweating, he is going to 
stammer, he is going to give motions off that may elicit some 
erroneous feelings on the part of the people watching him. And 
some of the statements coming from this side of the table can 
be very misleading from a hostile witness and he has got no 
right to appeal. I mean, I think it is--I think the press 
should be there and the people have a right to interview him 
coming in and coming out. But if a fellow is mandated, 
subpoenaed before a committee, against his will, I think he 
should have a right to say, please turn off the cameras and 
radio.
    Mr. Goss. Well, I am willing to debate that point, but I 
don't think that the argument that you have made is persuasive 
to me on the point.
    We have C-SPAN, and we all agree that C-SPAN has been a 
good thing for democracy. Now, you could say that it is lousy 
theater. You could argue that probably a lot of people are 
disillusioned about how democracy works.
    Mr. Moakley. Why don't we move them into the Federal courts 
if it is that great?
    Mr. Goss. Well, the jurisdictional problem is there, but 
the other question that I would raise, you know, back in the 
case in 1952 that you cited, I would agree with you that in 
1952, television was probably quite a thing. I don't think we 
had television in 1952. I am a Member of the House. I don't 
have the same vivid imagination as Members in the other body, 
perhaps, but I don't remember television in 1952. And I can 
imagine if there was television in 1952, that it would have 
been quite a big deal.
    But now everything is on television. In fact, there is so 
much on television, the natural instinct of my family is to 
turn it off because it is a distraction to whatever else you 
might be doing which might otherwise be useful.
    So I think the times have changed very much. I argue just 
the other way, that you are creating a mystery. You are 
creating a question of why won't they let us see this?
    And I think that very much is the tendency of the press. 
And I think you create a bigger problem for your witness than 
not. So I am just telling you that, while I understand the 
point you have made, I come down just exactly on the other side 
of the fence on it.
    Mr. Moakley. I think it is because of your training.
    Mr. Goss. That could be.
    Mr. Brand. I, for one, wouldn't equate, by the way, the 
interests of a witness in claiming the fifth amendment with 
turning off the television cameras. That is obviously a 
different set of considerations.
    Mr. Goss. Well, it is.
    Mr. Brand. And waiving the assertion of those rights.
    Mr. Goss. But you are making a distinction as a 
professional, as a man who has a great deal of expertise and 
knowledge and training in an area where you can make the 
distinction correctly and aptly.
    I am talking about the guy out there at the other end of 
the television. I mean, they don't understand it. The guy 
doesn't want to be seen, he doesn't want to talk, won't let us 
see what is going on. That is how it comes through. There is no 
distinction there. You know, he is hiding behind the fifth. He 
is running down the hall with a bag over his head, whatever it 
is. There is something to hide there. That is not dignified.
    You know, government in sunshine works. We do it in 
Florida. It is an amazing thing.
    Mr. Moakley. Again, this is government in the sunshine. The 
problem is that we don't have to do everything--to titillate 
every viewer that wants to see some fellow pressured and 
squeezed and asked leading questions that he can't defend 
himself against. I mean, that person, even though he says turn 
off the cameras, turn off the television, he is not saying I am 
taking the fifth. He is a willing responsive--he is responding 
to the questions that are asked. But he just doesn't want 
everybody in the world to see somebody who might be a--how many 
times have you been in a hearing and seen a hostile Member who 
just wants to go after a fellow?
    Mr. Goss. Right. Reclaiming my time on that, to answer.
    Mr. Moakley. All right.
    Mr. Goss. I will tell you that I think quite often it is 
the Member who comes out second best. I mean, I can think of 
some very remarkable hearings, and I imagine you can, too--you 
have been here longer than I have--where the potted palm did a 
lot better than the guy on this side of the dais.
    Mr. Moakley. Absolutely. But if you are the potted palm you 
feel awful uncomfortable at times.
    Mr. Goss. There is still the opportunity for the committee 
to shut down.
    Mr. Moakley. You are taking away an individual's right and 
supplanting it with the majority of a committee. That is not a 
fair thing.
    Mr. Goss. I have a little problem with that, because 
presumably we are in a system here and the system is run, and 
when somebody comes before a committee with a subpoena, there 
is a process involved. There is an expectation that these 
things are going to happen.
    Mr. Moakley. Yes.
    Mr. Goss. Now, if that witness had his druthers to do all 
things he wanted he would probably get up and walk out the door 
and say, no thanks I would rather not.
    Mr. Moakley. But he can't.
    Mr. Goss. That is the point. He can't.
    Mr. Moakley. He is there against his will. The least we 
should do is let him apply probably the only right he has got 
remaining, the only right he has got remaining.
    Mr. Goss. I would suggest he has lots of rights remaining. 
It is guaranteed in the Constitution. But it would appear to me 
that it is the responsibility of the committee who has brought 
him there to make sure that fairness is observed. So it is not 
the witness' right. It is the committee's responsibility.
    Mr. Moakley. Well, usually if the committee brings him 
before them, they have got some kind of idea that he has done 
something wrong and they are not going to ask him questions.
    Mr. Goss. It might be just a supportive witness.
    Mr. Moakley. Well, no use arguing it here, but I think we 
have made our points.
    Mr. Goss. Thank you.
    Mr. Dreier. The argument that I was making before you came 
in, Porter, and actually Paul Kanjorski sort of referred to 
this, he talked about the comity that exists in the Senate 
versus the harsh partisanship that exists here, and it does 
seem to me that there can be some reasonableness on occasion.
    You can use the 9 to 4 ratio here as an argument against 
that, Joe, but I think that if a Member of the Minority who may 
be working or, you know, have some rapport with the witness, 
makes a compelling case, then I think it would be quite 
possible to get votes from those in the Majority.
    Mr. Moakley. Would the gentleman yield?
    Mr. Dreier. Yes.
    Mr. Moakley. As a Member who is one of four, being one of 
four for about 2 years now, at least--3 years now.
    Mr. Dreier. Almost three if we adjourn on Sunday.
    Mr. Moakley. There are only two votes I can recall that 
were 8 to 5. The rest were 9 to 4.
    Now, don't tell me that some of those witnesses didn't have 
compelling stories to tell.
    Mr. Dreier. Well, we haven't had--these are procedures for 
moving down to the floor. But the ratio that we have here is 
obviously different than it is in a lot of other committees. I 
mean, you know that this is a much different setup than there 
are in investigative committees. We don't do those sorts of 
things in the Rules Committee.
    Mr. Moakley. You know the votes are already counted before 
the people come in.
    Mr. Dreier. On occasion.
    Thank you, Mr. Brand, for being here.
    Mr. Brand. Thank you.
    Mr. Drier. I am sorry. Before you leave, are there any 
questions from Sue or Mr. Hastings?
    Mr. Hastings. No.
    Mrs. Myrick. No.
    Mr. Dreier. Mr. Hall? I am sorry.
    Mr. Hall. The only thing I had to add--and I came in the 
middle of what Porter was saying--was the fact that--you raised 
the issue and maybe I have it out of context about we have C-
SPAN on all the time. The fact is we are politicians, we 
volunteer for this job. We know what we are getting into. We 
are used to the cameras.
    We should be used to the cameras after a while. The people 
that are subpoenaed before the committee might be very, very 
innocent. They are not politicians for the most part.
    Mr. Goss. I agree.
    Mr. Hall. And it is a scary thing.
    Mr. Goss. I agree.
    Mr. Hall. To be subpoenaed in the first place and then to 
have to have your picture taken--they ought to have some 
rights. For the most part a lot of them are probably innocent.
    Mr. Goss. If the gentleman would yield back. I would agree 
that that is a possibility that can always happen, and that can 
always happen with the testimony and the committee has the 
right to deal with the testimony in such a way that there is no 
defamation and so forth.
    But the other side of this--see, this is a legitimate 
argument. I am not trying to be cute here in any way at all. 
There is, in my view, a very compelling reason to do the 
public's business in public. I have seen all of the 
consequences of it done in public and there are miscarriages of 
justice sometimes when it is done that way because the sunshine 
is indeed very bright and some can tolerate it better than 
others, there is no doubt about it, but I have seen much more 
egregious violations of government out of the sunshine in my 
years of experience and at the level of State and local and the 
Federal level.
    So I have come to the conclusion I would rather err on the 
side of letting the sunshine in. I don't mean to say there 
aren't times when it is appropriate to take things out of the 
sunshine. National defense is clearly one. National security I 
feel very strongly about; a grotesque injustice, a threat to a 
witness, something like that, bodily harm that type of stuff. 
But I think that we have already got those provided for.
    So I think what we are really talking about now is 
convenience. I don't really want to be seen on television and 
so I am going to use my right to shut it off. And I am not so 
sure that the public's right to see what is going on doesn't 
override that.
    Mr. Moakley. Will the gentleman yield?
    Mr. Dreier. Actually, it is Tony's time.
    Mr. Moakley. Will the gentleman yield?
    Mr. Hall. Yes.
    Mr. Moakley. I wish the gentleman were here, and I really 
mean this, to listen to the testimony of John Dingell who has 
had more hearings than all of us combined.
    Mr. Goss. I am sure.
    Mr. Moakley. Telling how awesome it is the power that the 
committee has in the way the witnesses feel. I don't mind 
sunshine. It is the moonlight that I am afraid of.
    Mr. Goss. Well, if the gentleman from Ohio would yield?
    Mr. Hall. I yield.
    Mr. Goss. If you would allow me to respond to his 
observation and pass it along to the gentleman from 
Massachusetts, I will tell you that when I came to Washington I 
was astonished at the lack of manners here, what I thought were 
good manners, and I was horrified at the way people beat up on 
witnesses that came up.
    The Foreign Affairs Committee comes to mind. It was hugely 
unfair, I thought, and partisan and aggressive and I am not 
sure much good came out of it. And I am not sure that the 
people who were asking the outrageous questions or the nasty 
questions actually won any friends or respect among their 
colleagues or scored any points or got any useful information 
out or furthered the purposes of the committee.
    I think the way you deal with that is to stop that on the 
committee, to the best of your ability. Now, you can never stop 
an individual Member from making a fool of himself or herself, 
I suspect, if they are determined to do it. But I think a 
strong Chairman, with support--it is part of the 
responsibility. I understand the responsibility of any witness 
who comes in front of my committee and I try and protect that 
individual's rights and if there was an overwhelming reason, I 
would go to each Member and say I think we are going to close 
this and I would tell him why, and I would hope to get--I hope 
that's the right way to do it.
    I agree, I mean, we are talking very narrow degrees here 
and a spectrum where we are pretty close to each other. Thank 
you for yielding.
    The Chairman [Presiding.] Are there other questions? If 
not, the Chair would now call Peter Robinson, former Assistant 
Parliamentarian, U.S. House of Representatives, along with 
Charles Tiefer, former General Counsel for the U.S. House of 
Representatives. If you don't mind, gentlemen, we would like to 
try to expedite the hearing.
    Peter, since you are first on the list, why don't you 
proceed. Your entire statement would appear in the record 
without objection. Take whatever time you feel is necessary.

STATEMENT OF PETER ROBINSON, FORMER ASSISTANT PARLIAMENTARIAN, 
                 U.S. HOUSE OF REPRESENTATIVES

    Mr. Robinson. Well, thank you for having me today. Frankly, 
a lot of what I was going to say has already been said so I 
will kind of cut to the chase.
    Mr. Moakley. You are used to that, Pete.
    Mr. Robinson. That's right. Actually, when I came to the 
House Parliamentarian's Office in the early 1970s this rule was 
just being adopted and taking place. I do have a fairly clear 
recollection that the witness protection part of it was 
conceived to be part and parcel of the whole bit, that if you 
were going to broadcast committee hearings that this right was 
very important.
    And if you go back and read the record of the debates in 
the 1950s, where those Members who thought that committee 
hearings ought to be opened up to broadcast media, and they 
would continually ask Speaker Rayburn, well, isn't this allowed 
under the rules, and he would steadfastly say from the Chair, 
it is not allowed under the rules, under the present state of 
the rules and hearings cannot be broadcast. But if you read the 
statements of these Members, like Javits, Meader and the 
alternatives that they were put forth in terms of resolutions, 
they always had--accompanying the broadcast of hearings 
question, they always had this right included as if it had 
become just part of the same deal.
    There is not a lot of legislative history on the 
Legislative Reorganization Act of 1970 when it came out of this 
committee and the committee report just basically recites what 
the rule on witness protection rights says, as if it were 
simply to be naturally assumed.
    In my experience, there have always been individual cases 
of hearings where specific Members have been frustrated by the 
rule and its operation and unable to publicize what they wanted 
to publicize. I don't think until this point that there has 
been any kind of consensus that it has been an inconvenience to 
committees operating.
    Of course, it is argued that 1997 is a different time than 
1990; that witnesses can be caught coming or going, and that 
the Senate does not have a comparable rule. I kind of agree 
with those who say, however, once it is out, it is out. If 
there is going to be prejudice from broadcast coverage once it 
is out, it is done.
    With respect to following the Senate, which I would 
certainly not argue for in too many cases, I would point out 
that the Senate does have a rarely invoked Senate rule and that 
if you repeal this rule and leave in place only clause 2(k)5 of 
rule 11, the defame, degrade and incriminate rule, that the 
Senate actually has a broader test for witness protection in 
closing hearings.
    Now, it is true that under the Senate rule the witness 
cannot invoke the rule. It is totally at the committee's 
discretion. But what the Senate rule says is that hearings can 
be closed if matters to be discussed will, quote, "tend to 
charge an individual with crime or misconduct, to disgrace or 
injure the professional standing of an individual or otherwise 
to expose an individual to public contempt or obliquity or will 
represent a clearly unwarranted invasion of the privacy of an 
individual."
    My main suggestion on this whole issue is that the 
committee proceed cautiously. Of course, that is my bias. 
Parliamentarians don't like to change rules, especially if they 
have been around for a while. I do think some of Stan Brand's 
points are very well taken, and that the--really the committee 
ought to look into some of the legal ramifications of this and 
get a full input from the legal community, the academic 
community, the media community, for that matter.
    It may be an unintended consequence of this rule that if 
you repeal this rule, that there, as some have indicated, will 
be a much greater tendency to try to invoke clause 2(k)5 of 
Rule 11, the defame, degrade or incriminate rule, perhaps in 
frivolous cases, requiring the committee then to assemble a 
full quorum and to vote on that issue.
    And the other consequence may be simply that for this 
informative process an investigation is supposed to be that a 
witness who can't turn off the cameras is going to be, as 
others have noted and as Edward Bennett Williams wrote, may be 
uncomfortable, less articulate and probably less forthcoming.
    One final point. Clearly, this rule exists for the 
protection of the witness. That is how it was conceived. But 
you might take the point of view that it also is a protection 
for the institution; that it gives some breathing space; that 
it is an escape clause and that it shows that the institution 
believes in fundamental fairness. That is one way to look at 
it.
    I think on this issue, you kind of agree or you don't. 
Those are my comments.
    The Chairman. Well, Peter, we appreciate your insight into 
this. It is a complex issue.
    Mr. Robinson. Very
    The Chairman. Mr. Charles Tiefer.
    Mr. Tiefer. Thank you.
    The Chairman. Your statement will appear in the record 
without objection as well.

  STATEMENT OF CHARLES TIEFER, FORMER GENERAL COUNSEL TO THE 
              CLERK, U.S. HOUSE OF REPRESENTATIVES

    Mr. Tiefer. I appreciate that. Since so many points have 
already been covered, I can skip a number of things that I was 
going to say. I am testifying based on my experience as 
Solicitor and Dep- 
uty General Counsel of the House for 11 years, and as a full-
time professor of legislation.
    The origin of this rule in the McCarthy era and the 
reaction against that era's abuses have been discussed. One 
thing that I want to underline is that there has been a 
memorable history of the operation of this rule. It is true 
that it is not invoked often, but it is invoked sometimes on 
occasions of great moment.
    One has been mentioned and that was in 1989, when former 
HUD Secretary Pierce was brought back to a hearing. He was 
brought back to a hearing specifically because it had to be 
determined whether he really was going to take the fifth 
amendment or not. He had testified before in hearings about the 
HUD scandal at an early stage. Then the scandal became much 
more serious. And the question was, was he willing to continue 
his previous testimony or was he now going to say, I must claim 
my right, my fifth amendment right against self-incrimination?
    There are other instances when this rule has come into use 
for a witness who wants to take the fifth amendment. In a very 
controversial matter, much debated by civil liberties people on 
one side and by congressional investigative people on the other 
side Congressional committees have retained the power to say, 
you must appear in public. If you are going to claim the fifth 
amendment, we have the right to test whether you, in an open 
and formal proceeding, are going to take this fifth amendment 
right or not.
    And what this rule has meant--another instance when we came 
close to the use of this rule, was when Oliver North and John 
Poindexter appeared before the House Foreign Affairs Committee 
in December of 1986. They seriously discussed, through their 
counsel, invoking their right. They knew they had it. It 
mattered a lot to them, that they could say, we are not--we are 
not appearing here under the gun. The fact that the--or, 
rather, we are appearing here under the gun, but it is we who 
are allowing the television broadcasting of our testimony to 
occur. We could shut the cameras off--
    The Chairman. That is right.
    Mr. Tiefer. --if we intended to. We have chosen to let the 
public watch as we take the position that we are going to take.
    And those are examples of why this is considered a rule 
that is ultimately fair to witnesses. I use the analogy in my 
testimony of a witness who has to take the fifth amendment 
right in public. It is necessary for the openness and the 
publicity, the public sense of the rightness of proceedings in 
Congress that the print press be present; that the press be 
able to watch this; that a transcript be prepared.
    But, it is a permanent, in the minds of the witness, 
shaming of some witnesses. And I think this is what Secretary 
Pierce felt like. It is effectively as if you required them to 
appear in prison stripes and that forever afterwards everyone 
who knew them was going to associate their voice and their 
image with appearing as someone who had said, I am subject to 
incrimination. In effect, someone who will wrongly be perceived 
by the viewing public as having said, I am guilty. I know I am 
guilty. I am admitting I am guilty. And that is what-- why in 
the McCarthy era the shutting off of the cameras was considered 
of central importance and that is why for dis- 
tinguished witnesses who have taken this right, the House has 
continued to allow it, because there is something about the 
image of someone being subject in public to an incriminating 
proceeding that is considered to be unfair.
    One thing I would say in my last point, something I would 
mention, there are two proposals before this committee, as I 
understand. One is the Barr resolution which would absolutely 
do away with the Rule 11 right to shut off the cameras and the 
other is a resolution by Congressman Ganske which would make 
the right subject to a vote by a majority of the committee. 
That is similar to the fact that a majority of a committee or 
subcommittee can close hearings under 2(k)5. A majority of the 
committee or subcommittee could shut off the cameras if the 
witness invoked the right.
    Although I favor retaining the rule, I would urge you to 
either give the House the choice or yourself make it that if 
you are going to change the rule, you go to the Ganske 
formulation rather than the Barr formulation, and it comes out 
of the scenario that I have described.
    You are going to be faced again in the future, whoever is 
in the Majority, whatever the subject, with witnesses whose 
fifth amendment claim you want to test; witnesses, whether it 
is the current campaign finance hearings or the HUD hearings 
who are going to be taking the fifth amendment. If you have the 
Gankse formulation at least the committee has the option of 
saying--the matter must occur in public, but we will shut the 
cameras off. And that is an option that is invaluable for the 
committee.
    I think the existence of that option is one of the things 
that Chairman Dingell had in mind when he talked about the 
Milken situation and he said we can conduct our proceeding. 
Milken could come in; we could do this. You throw away that 
option and you force this shaming procedure that I have 
described to occur if you go with the Barr formulation.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Tiefer follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.028
    
    [GRAPHIC] [TIFF OMITTED] T7094.029
    
    [GRAPHIC] [TIFF OMITTED] T7094.030
    
    [GRAPHIC] [TIFF OMITTED] T7094.031
    
    [GRAPHIC] [TIFF OMITTED] T7094.032
    
    [GRAPHIC] [TIFF OMITTED] T7094.033
    
    [GRAPHIC] [TIFF OMITTED] T7094.034
    
    [GRAPHIC] [TIFF OMITTED] T7094.035
    
    [GRAPHIC] [TIFF OMITTED] T7094.036
    
    The Chairman. Well, Charles, thank you very, very much. I 
guess I did not understand, Peter, your description, saying 
that the Senate version would then be broader than what is left 
with the House.
    As I read the language, the Senate rule says, matters which 
will tend to disgrace or injure the professional standing of an 
individual or otherwise expose an individual to public contempt 
or obliquity or will represent a clearly unwarranted invasion 
of the privacy of an individual. You compare that to Clause 
2(g)(1) of Rule XI, which says information which would tend to 
defame, degrade or incriminate any person, and it goes on to 
say other things. It seems to me they are equally as broad.
    The only difference I see, and that our staff has seen in 
analyzing the two, is that the Senate has one small clause 
which deals with certain trade secrets, which we do not 
normally deal with in the House of Representatives. We do not 
deal with treaties and things.
    But at any rate, Mr. Goss, do you have any questions of the 
witness?
    Mr. Goss. The only observation I wanted to make was Mr. 
Tiefer's comment on the question of, if there is a reason to 
close down, who makes the decision. That is what we are arguing 
about, I think. I would say the decision rests with the 
institution, and you are arguing the decision rests with an 
element of the institution.
    There has to be some justification of that, and I do not 
know what the justification is, thinking of the protections 
that are already built in. That is why I am on the other side 
of the issue. I can see your point. I think you are giving an 
abundance of caution to the witness and tilting the field that 
way, and that could work out, but I believe the responsibility 
is of a higher order, and that lies with the committee.
    Mr. Tiefer. I understand your point, Mr. Goss. Let me 
mention something that has not been brought up which bears on 
your point. That is, we currently have a situation where if it 
is necessary to conduct hearings and to insist that the cameras 
roll, even when you have an involuntary witness, the House can 
do so. That is, it is possible when the House authorizes a 
major investigation, for the House to include in the 
authorizing resolution that the particular investigating 
committee will not be subject to Rule XI. That occurred, to my 
knowledge, once. It occurred for the Iran-contra committee in 
1987.
    And the value of having that--I am going to describe that 
as the current system--in the current system, ironically, it is 
this Rules Committee that decides. This is the committee that 
processes the resolutions for investigating committees. Just 
like for the current investigation by the Government Reform and 
Oversight Committee, it is this committee that processed H.Res. 
167 that said it could have deposition authority and overseas 
investigative authority. It is this committee and then the 
House acting on the recommendation of this committee that makes 
the judgment how many, in effect, of these very powerful tools 
that an investigating committee of Congress can have--these 
clubs with which it can beat a witness, how many will it have?
    And my knowledge of the report of this committee is a 
judgment was made in H.Res. 167: for deposition authority, yes; 
investigative authority overseas, yes. The ultimate H.Res. 167 
did not include the authority to get tax reports of witnesses. 
I take that as a positive sign that this committee engaged in a 
judgment process as to how many powers to give out and whether 
it was an occasion to give away the store, you might say.
    The Chairman. You are absolutely right.
    Mr. Tiefer. Okay. And that was a judgment that represented 
a lot of maturity and wisdom, because there is a temptation to 
give the store away. Some would say, give it away every time, 
and this committee did not.
    Similarly, on H.Res. 167, the committee could have said, 
oh, and by the way, you will not be subject to the broadcast 
ban either. You could have written that into H.Res. 167. You 
could have said the Government Reform Committee will not be 
subject to the broadcast ban for subpoenaed witnesses.
    Why something does not appear in a final version of an 
investigation authorizing resolution is due to many factors. 
You could have; you could still do that now. The current 
system, I think, is a good system because it is this committee 
and the House, in effect, that make the judgment as to when the 
broadcast ban will be in effect and when it will not.
    If you go to the Barr resolution, you go the full distance 
and you say not only is it not this committee and the House 
that are acting as a screen, nobody is acting as a screen. No 
matter how wise it would be to give the witness rights, they 
will not have them any more.
    Mr. Robinson. I would add that I agree with Charles on that 
point; that I would certainly prefer, rather than an outright 
repeal, a vote of some sort, though I would think about that. I 
have not had a lot of time to think about this, about some kind 
of standard for that vote, and I am not sure what it is.
    Mr. Goss. There are so many different circumstances that 
you can think about that come to mind. If you are dealing with 
an ethics committee problem you have a set of safeguards 
already built in. If you are dealing with intelligence or 
national security problems, you have a different set of rules 
and a process for the House where the House closes itself. I 
think we guide ourselves thinking about sort of the edges of 
this rather than the normal business, which is the public's 
business.
    I think we are throwing a lot of scare stories out there 
trying to say, well, we might be giving something away here, 
where I think most of the time we are going in the right 
direction, in the direction of sunshine, and the rest of the 
time we are counting on the committee to be responsible. That 
seems to me to be a fairly reasonable way to do the 
government's business.
    I do not see the horror stories here. Going on a very 
bottom line, the nugget, to me is, who makes the decision about 
whether television and radio broadcast and print media people 
are there doing their thing; and I think that is the 
committee's, I think it is the institution's decision. That is 
really where I am coming from on this. Now, I do not expect the 
institution to roll over American citizens.
    Mr. Tiefer. Well, you have a valid point that you will 
still have the procedure under Rule 2(k)(5), by which an 
investigating committee can go to closed proceedings.
    I would suggest that there is a very strong and appropriate 
tendency in the House not to go to closed proceedings, and that 
what you are doing is eliminating any middle ground; that 
either the committee must close the doors and allow no 
visibility whatsoever of what it is doing, or it must force the 
witness, as I have said, to bare himself, in these 
incriminating-looking situations, to the TV cameras. So you are 
taking away the middle ground.
    Mr. Goss. Right.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Moakley.
    Mr. Moakley. Are you not, in effect, eliminating the 
sunshine policy that Mr. Goss has been talking about by going 
to that rule?
    Mr. Tiefer. Mr. Moakley, I think that there is going to be, 
what there was at the origin of this rule in the 1950s, when 
there was debate over what to do about the McCarthy era 
excesses. There was a fair push at the time to say if there is 
any hearing that is incriminating for a witness at all, the 
witness should be able to close it. Those were proposals made 
at the time. There will be a thrust in that direction again if 
there is no middle ground.
    Mr. Moakley. Sure.
    Tell me, what rights would the person coming before a 
committee have if this right is stripped away from him? How can 
he testify himself or appear to be innocent or whatever?
    Mr. Tiefer. As I was listening to some discussion earlier 
that suggested that witnesses in front of congressional 
committees are in a wonderful position and have a lot of 
rights, you compare them with a defendant in a criminal trial, 
who is not in the strongest position as it is. A defendant in a 
criminal trial can summon witnesses on his behalf, a witness in 
Congress cannot summon witnesses. A defendant has the right to 
confront people. A witness in Congress has no right to confront 
people; under Jencks and Brady, a defendant has the right to 
see the notes that the investigators have compiled against him.
    Mr. Moakley. Discovery.
    Mr. Tiefer. We have no Jencks and Brady for congressional 
witnesses.
    Mr. Moakley. Cross-examination.
    Mr. Tiefer. He has no cross-examination powers.
    Mr. Moakley. And this is the people's House. We are 
supposed to protect people's rights.
    Mr. Tiefer. Well, it was mentioned earlier, you 
occasionally get a congressional witness like Oliver North, who 
is able to battle the committee, blow for blow. On the other 
hand, in the last year, in the Government Reform Committee and 
the Senate, we have seen witnesses whose command of English is 
not so great, and they appear--
    Mr. Moakley. On this side of the table.
    Mr. Tiefer. Well, the ones I am referring to appeared 
terrified. I am not sure about the ones you are referring to. 
But they looked terrified to me.
    Mr. Moakley. Pete, both of you did a great job. Thank you.
    The Chairman. Mr. Hall.
    Mr. Hall. No questions.
    The Chairman. No questions.
    Gentlemen, let me just say that I am impressed with your 
testimony. You both certainly have great experience in this 
area.
    I am just a little concerned that we try to portray this as 
being identical to the courts. I do not think it is, 
personally. I think there is a separation of powers, that we 
have an obligation to look out for the Constitution.
    We are not here to convict people, we are not here to plea 
bargain, and so the roles are a little bit different. So we 
really are not comparing apples to apples in this particular 
instance. But we appreciate your testimony and thank you so 
much for coming.
    The committee is going to stand in very brief recess. There 
will be an end of this vote momentarily, and then I understand 
there are two or three 5-minute votes in series. We will 
reconvene 1 minute after the last of the series of votes, which 
should be in about 15 or 16 minutes or so.
    So if the last two witnesses, who are Mrs. Barbara Cochran 
and Mr. Tom Dillon, will bear with us, we will be back just as 
soon as we can. The committee stands in recess.
    [Recess.]
    The Chairman. The committee will come back to order. We 
have two more witnesses that will appear in a panel, if they do 
not object, Mrs. Barbara Cochran, the President of Radio-
Television News Directors Association; and Tim Dillon, the 
Chairman of the Standing Committee of Press Photographers. And 
if you two would like to come forward--
    I do not have biographical information on you, Tim, but I 
do on Barbara, and I just would like to call attention to the 
fact that Barbara Cochran was Executive Producer of Politics 
for CBS News and supervised political coverage for all CBS News 
programs during the 1996 election cycle.
    From 1989 to July 1995, Ms. Cochran served CBS as Vice 
President and Washington Bureau Chief. She directed CBS 
coverage of the Bush and Clinton administrations, including 
coverage of U.S. military involvement in the Persian Gulf War, 
the 1992 elections and inauguration, and the Republican victory 
in the 1994 congressional elections.
    An industry insider, Ms. Cochran's career in journalism has 
covered almost 3 decades in Washington. In 1983, she joined the 
television ranks as Political Director for NBC News, later 
serving as Executive Producer of Meet The Press. And something 
I enjoy saying is, she holds a master's degree from Columbia 
University, Graduate School of Journalism, in New York.
    I am sorry, Tim, I do not have one of your bios. Would you 
like to tell us anything about yourself?
    Mr. Dillon. I am sorry. On such short notice, we did not 
have a chance to get anything together.
    I am the Chairman of the Standing Committee of Press 
Photographers and have been for the last year. I am a staff 
photographer for USA Today and have worked in Washington since 
1979. Before this, I was with the Washington Star.
    The Chairman. You both were. How about that? Did you know 
that?
    Mr. Dillon. No. For the last 3 years.
    Mr. Moakley. You did not meet at the water cooler?
    Ms. Cochran. No.
    The Chairman. Well, let me welcome both of you here and 
apologize for having to keep you so late in the evening. It was 
a big inconvenience, and we apologize for that.
    But having said that, I am most interested in your 
testimony and, Barbara, if you would like to go first, your 
entire statement will appear in the record, but take whatever 
time you need. And likewise for Tim as well.

STATEMENT OF BARBARA COCHRAN, PRESIDENT, RADIO-TELEVISION NEWS 
                     DIRECTORS ASSOCIATION

    Ms. Cochran. Thank you. Thank you very much, Mr. Chairman. 
It is a great honor to have the opportunity to testify before 
this committee on a subject which is one that I have been 
involved in pursuing at least since 1989, because this is a 
rule that has interfered with the ability of the organizations 
that I have worked for to adequately cover events in the House. 
So I am glad to see that you are considering making a change.
    You did quite a nice job of summarizing my experience here. 
The only thing I would add is that I also had experience in 
radio as Vice President for News at National Public Radio 
during the time when Morning Edition was created.
    Over the years, numerous witnesses have invoked Rule XI to 
prohibit television camera and radio coverage of their 
testimony in full or before subcommittee hearings. The public 
was denied, therefore, witnessing through audio and visual 
coverage the testimony of many important witnesses in key House 
proceedings. Among those who successfully barred cameras and 
microphones in recent years were relatives and associates of 
Charlie Trie in the investigation of the 1996 campaign finance 
scandals; David Watkins, a former White House aide in the White 
House Travel Office investigation; Charles Keating, former 
president of Lincoln Savings & Loan; and as has been mentioned 
here, Samuel Pierce, former Secretary of Housing and Urban 
Development.
    And, in fact, in 1989, the four networks, including CBS, 
where I was then the Bureau Chief, went to court to try to get 
Congress to open up coverage of hearings that he was attending. 
As we have heard, that was denied and, in fact, the judge ruled 
that it was up to the House to make those rules for itself and 
that the courts had no jurisdiction. So since that time our 
only recourse has been to seek from the House some kind of a 
revision in Rule XI.
    Currently, clause 2 of Rule XI directly inhibits the 
ability of radio and television correspondents to cover the 
proceedings of the House of Representatives in an open and fair 
manner. No similar prohibition exists in the Senate, as has 
been noted here. RTNDA believes no basis exists for continuing 
to bar electronic journalists from this kind of coverage.
    As a preliminarily matter, the rule is biased against 
electronic media. There is no rule barring newspaper and 
periodical reporters from remaining in the room while a 
subpoenaed witness testifies. Thus, if a witness invokes Rule 
XI, print media coverage can continue unaffected, but 
microphones and cameras are the equivalent of the pencil and 
pad of the print media, and these are prohibited.
    In an era when the Supreme Court has recognized that 
disparate treatment of different media is highly suspect, 
restricting the rights of the electronic media to report on 
congressional hearings cannot be justified absent a compelling 
showing that such coverage would inherently have a unique 
adverse effect on the pursuit of justice.
    Precluding the electronic media from covering witness 
testimony, while permitting access to others, may in fact 
violate the equal protection clause in the First Amendment. I 
would strongly urge government officials not to continue to 
discriminate between members of the media in this regard.
    Originally, the rule was deemed necessary to protect the 
rights of witnesses, but given the proliferation of video 
media, that reason is no longer justified. Witnesses can be 
captured on camera right up until the moment they testify and 
immediately afterward. The only recording that would be barred 
would be of the witness in the committee room, and even those 
words, as spoken, are later available in transcript form.
    Most importantly, in this modern age when most Americans 
rely on the broadcast media as their primary source of 
information and where advances in technology have eliminated 
any unique logistical problems with electronic coverage, 
prohibiting full electronic coverage of these proceedings 
serves only to deny the public access to and observation of 
important government proceedings.
    Maximum public access has long been the ideal in our 
country, and electronic coverage is the primary means through 
which realistic access to the workings of government can be 
provided to most segments of the public. In part, this is a 
function of the importance that radio and television now plays 
in individuals' daily lives. Radio and television news serve as 
the primary source of information for the public worldwide.
    The House of Representatives and this committee have 
frequently led the way in providing public access to the 
proceedings of this body. The House was the first to permit 
cameras to broadcast from the floor of the Chamber during 
regular business. The 104th Congress amended its rules to 
permit radio and television coverage of all proceedings open to 
the public. We appreciate the House's willingness to address 
issues of public access and to seek to provide coverage on an 
equal basis for all media. Repeal of clause 2 of Rule XI would 
be another critical step in achieving that goal.
    I would also like to add that exceptions that you have 
mentioned to protect witnesses' safety, in the case of 
whistleblowers, who might deserve some protection, have always 
been accommodated by the electronic media. We have made 
accommodations for that kind of coverage, and all we are asking 
for is equal treatment with our colleagues in print.
    The Supreme Court has noted that people in an open society 
do not demand infallibility from their institutions, but it is 
difficult for them to accept what they are prohibited from 
observing. The importance of openness to the workings of 
government cannot be overemphasized. Through electronic 
coverage, people not actually attending congressional hearings 
can have confidence that standards of fairness are being 
observed by their representatives in government.
    Moreover, through radio and television coverage, the public 
is afforded direct and unfiltered access through the 
opportunity to hear the witness speak his or her own testimony. 
This allows our citizenry to reach more informed conclusions 
regarding important and often complicated issues.
    In sum, witnesses called to testify before Congress should 
not be allowed to hide from the public and the press. Hearings 
of significant public interest should be open to cameras as a 
matter of course. RTNDA urges this committee to change Rule XI 
and to open all public House committee hearings to full 
coverage by all of the media.
    Thank you.
    The Chairman. Barbara, thank you very much.
    [The prepared statement of Ms. Cochran follows:]

    [GRAPHIC] [TIFF OMITTED] T7094.037
    
    [GRAPHIC] [TIFF OMITTED] T7094.038
    
    [GRAPHIC] [TIFF OMITTED] T7094.039
    
    [GRAPHIC] [TIFF OMITTED] T7094.040
    
    [GRAPHIC] [TIFF OMITTED] T7094.041
    
    The Chairman. Let me now turn to Tim Dillon and, Tim, 
again, you may take whatever time you feel is necessary

STATEMENT OF TIM DILLON, CHAIRMAN, STANDING COMMITTEE OF PRESS 
                         PHOTOGRAPHERS

    Mr. Dillon. I will try to be brief. Obviously, I did not 
have enough--quite as much time to prepare for this, as we were 
asked to support the letter Mr. Radner wrote, and we certainly 
are in agreement with everything they have said.
    Most of the testimony today centered around the radio and 
television aspect of the Rule XI. Unfortunately, that rule 
covers our gallery also. My main point in coming here, what I 
wanted to stress, was that when a subpoenaed witness is 
testifying, print media reporters are not barred from the room. 
They are covering the remarks, the gestures, whatever, of the 
witness. And I, along with all of the other members of my 
gallery, and the journalists also, I just happen to work with a 
camera instead of a pencil and pad.
    I would tell you that we have at least ten members in our 
gallery that have a Pulitzer Prize, which is journalism's top 
prize. Most of us went to journalism school. All of us have 
worked in the business for a fair amount of time to get to the 
level to cover this sort of news event. And I feel that we are 
covered by the same First Amendment right that the print 
reporters are covered by. Removing us from the room at the 
point the witness says, I do not want to have my picture taken, 
is equivalent to letting those people stay in the room with the 
pads and pencils, but saying, you cannot use them. They are 
taking my tool away, and they are not having their tools taken 
away.
    Mr. Goss had a point earlier about the potted palm. Rule XI 
states that the camera has to be covered up, microphones 
unplugged. Well, when you cover the cameras and you unplug the 
microphones, you are doing that not only to the witness, but to 
everybody up on the dais. And as you pointed out, the potted 
palm won that fight. I was there. And so was Mr. North.
    If Mr. North had been in the House rather than in the 
Senate, because that was in the Russell Senate Office Building 
where that took place, he could have, which he did not, invoked 
Rule XI. I doubt that Mr. North would now be on radio or own a 
bulletproof vest company or that anybody would know who he was 
had he not been on television. He was an instant, instant hit 
as a result of that.
    As a matter of fact, I went back to my newspaper, USA 
Today, and the switchboards were jammed. It was like this guy 
is a hero immediately because of his testimony.
    I also might say that if I were a witness sitting here, and 
I was a little nervous about something, I would more likely be 
nervous about the Chairman who is going to ask me, where were 
you at 12 o'clock last night when such and such happened rather 
than a TV guy over in that corner of the room. That would scare 
me.
    I am sure there are a few people, like I had some people at 
work that wanted to photograph me, and I was going to invoke 
Rule XI if they came up here to take pictures of me, but I 
understand that they can be nervous.
    The other thing I do understand is that in the Senate, 
where that rule does not exist, I do not think there has been a 
problem as long as I have been working in Washington. I realize 
this all grew out of the McCarthy hearings. And back in the 
early 50s, I can remember, Mr. Goss, watching the McCarthy 
hearings on television in 1952 because there was television 
then.
    Mr. Goss. We just did not have it.
    Mr. Dillon. It was in black and white, but it was there. I 
do understand, and it has happened numerous times that there 
are times when the witness cannot be photographed. The last 
instance in the Senate that I can recall was the IRS people 
that testified. They put a curtain up and you could not 
photograph them, but you could still photograph the panel and 
the questions that were being asked.
    Other examples would be witness protection people, Federal 
witness protection people, or whistleblowers, or people who are 
testifying regarding national security. We all understand that 
those people have to be protected.
    But my main reason for testifying is that in addition to 
supporting radio and TV, I am supporting my people because 
virtually everyone that I work with is working for print media, 
which is the press, as in the First amendment; and I am not 
being allowed to do my job, while my counterpart with a pencil 
is. That is about all I have to say.
    The Chairman. Thank you very, very much. Your testimony is 
interesting and I, for one, do not believe that Members of 
Congress ever distinguish themselves in a favorable light when 
they are arrogant or rude, as sometime Members of Congress are 
when they are interrogating witnesses. I think that comes 
across in an unflattering way, and I, for one, would not mind 
keeping the cameras on if that were going to happen, and then 
let the American people see certain Members of Congress in 
action.
    I think, for the most part, most of the Members of Congress 
are polite, they are reasonable, and I do not think they would 
ever conduct themselves in a way that would harass the witness; 
but if they did, I think the cameras ought to be on, and the 
American people ought to see it, and then those Members ought 
to be ashamed of themselves.
    Ollie North happened to come from my hometown, and I had 
the great privilege of nominating his two brothers, younger 
brothers, to the military academies, one to West Point and one 
to the Naval Academy. Neither of them made it, because their 
SATs were not high enough, but they went on to become 
commissioned officers and had very good careers in the other 
branch than the one Ollie and I served in, the Marine Corps.
    Let me just ask you, Barbara, you cover the Senate, as 
well, your people?
    Ms. Cochran. Yes.
    The Chairman. In all of the years that the Senate has been 
covered by television and radio, do you ever recall an incident 
that would have reflected badly on the Senate because of the 
cameras being on?
    Ms. Cochran. No, I do not.
    The Chairman. I do not either. I have been trying to recall 
and done a lot of research on it, and the very fact that they 
do not have a similar rule as we have does not seem to have 
made any difference as far as any abuses are concerned.
    Ms. Cochran. No, they seem to have been able to operate 
just fine.
    The Chairman. And in both your opinions, if we were to 
repeal this one rule, leaving in effect an almost identical 
rule to the Senate, that we would probably have the same kind 
of experiences that the Senate has had?
    Ms. Cochran. I would think so.
    The Chairman. Mr. Dreier.
    Mr. Dreier. I do not have any questions, but appreciate 
your thoughts and input and, obviously, we will be considering 
this shortly after your departure, I guess.
    The Chairman. Mr. Moakley.
    Mr. Moakley. Ms. Cochran, you said that the rule inhibits 
your profession in covering the hearing; and Mr. Dillon, you 
said that the print media can stay in the room when your people 
have to go. But you do not have to go. You can stay in the room 
and cover it. You can take pictures of the witness coming into 
the room, you can take pictures of the witness going out of the 
room, and you can make the statement that he made while he was 
in the committee room.
    So, in fact, if I were the print media, I would say you 
have an advantage over them because you have instant coverage 
and they have to wait until the next day to get the picture and 
their stuff in the paper. So it would never be equal, no matter 
what happens.
    Ms. Cochran. First of all, it is only fair to tell you that 
the representatives of the print media also support this change 
in the rule. The American Society of Newspaper Editors has 
joined in hoping that the House would overturn Rule XI.
    But secondly, to the question of how a story is told on 
television or on radio, we think one of the reasons that it is 
such an appealing form of presenting the news to the public is 
because it captures the essence of the moment. Rather than 
having the reporter's account of what a witness said, you have 
the actual words of the witness. You have the demeanor of the 
witness.
    We think that that can provide a more accurate record and a 
more accurate way of telling the story, certainly a more vivid 
way of telling the story, than to have a reporter talking 
himself and giving an account of what was said inside the 
committee room.
    Mr. Moakley. Now, you have talked about people who have 
availed themselves of Rule XI, and I am sure you have done a 
lot of research on people, and your industry has only come up 
with 11 cases. So, I mean, it is not used very often.
    Ms. Cochran. That is correct. But when it is used, as in 
the Samuel Pierce case, it is something that is often a very 
newsworthy story, something that might be considered for live 
coverage, particularly by a station such as C-SPAN that 
specializes in that kind of coverage. And so it has interfered 
with our ability to tell stories on those occasions.
    Mr. Moakley. Are you telling me that a committee hearing 
cannot be adequately covered by the print press media?
    Ms. Cochran. Cannot be adequately covered by the print 
press?
    Mr. Moakley. Yes.
    The Chairman. In today's times, I would say so.
    Ms. Cochran. Well, we like to feel that we are also 
offering the same variety and menu of stories to our viewers 
and listeners that are available through newspapers or 
periodicals, and so if we--particularly on--
    Mr. Moakley. Probably quicker.
    Ms. Cochran. On a hot story we want to be able to be 
competitive. We want to offer our audiences as full and 
complete a report as we possibly can.
    Mr. Moakley. You people didn't say it but it is almost 
inferred that when they say no more radio, no more TV, that 
your people are ousted out of the room. You people are still 
staying there and you can take your notes.
    You can't stay there?
    Mr. Dillon. No. I have a camera. I don't write.
    Mr. Moakley. I understand that, sir.
    Mr. Dillon. My only job is to take pictures and I get 
thrown out--I have no interest in interviewing the witness. It 
is not my job.
    Mr. Moakley. But you don't have to leave. You just don't 
take any pictures.
    Mr. Dillon. Why would I stay?
    Mr. Moakley. Because you can write.
    Mr. Dillon. I am not a writer. I am a photographer.
    And the point you made, you were asking about the witness--
photographing the witness before.
    Mr. Moakley. And after, right.
    Mr. Dillon. You can't photograph the interaction between a 
witness and the committee. As Mr. Solomon pointed out, 
sometimes Members beat up on the witness. There are two sides 
to this story, and you can't tell people with cameras they have 
to leave and rely on somebody over in the corner with a pencil 
to describe what is going on. It is much more accurately 
described in video and with still pictures.
    Mr. Moakley. Don't you think in fairness to a person who is 
summoned before a committee against his will that he should 
have some rights?
    Mr. Dillon. I believe the committee has outlined the other 
provisions in the rule 11 that protect that.
    Mr. Moakley. But you have to take a vote of the committee 
to ensure that he has got his rights. Do you think you should 
take care of--take away a rule and leave it up to a committee? 
You have seen the way some of these committees operate.
    Mr. Dillon. I have been up here awhile, yes.
    Mr. Moakley. Yes, I know. That is why I said that.
    The Chairman. Would the good gentleman yield?
    Mr. Dillon. I would also be more intimidated by the 
committee, not by the television camera. I mean, if you are up 
here minding the business you are here for, that television 
camera is going to be the last thing on your mind.
    Mr. Moakley. Oh, no, but if you are a person coming into 
probably a legislative body for the first time and looking at 
those cameras and looking at some of the mean faces that you 
have, like the Chairman over here, the poor person would be 
scared to death. I mean, if he has nothing to hide he would be 
afraid something would go wrong.
    Mr. Dillon. Congressman Moakley, the way technology is 
these days, those cameras are so far back and the way the thing 
is lit, I doubt the witnesses can even see the cameras.
    Mr. Moakley. But he knows that they are there because he is 
told going in by his lawyer or whatever, watch those cameras. 
Don't shake your head when you shouldn't. Smile. Look confident 
and all of these things, and the fellow is trying to think of 
all of that and still answer the questions the proper way.
    Thank you.
    The Chairman. Mr. Moakley, if you would yield, before I 
came to this committee 10 years ago or more, I served on a 
number of committees, but one of them was the Foreign Affairs 
Committee and we had a particular subcommittee Chairman, who 
was very arrogant, very rude and belittled and heckled and 
harassed the witnesses, and I began to apologize to the 
witnesses for him, on television. And it didn't take too long 
before this young fellow was straightened out and now he is 
over in the Senate. He is a Senator but he is not as rude as he 
used to be. He is almost a gentleman.
    Mr. Moakley. That is because he is with more unruly people.
    The Chairman. That is why we should keep these cameras 
rolling.
    Any questions of the witness?
    Mr. Moakley. Thank you, sir.
    The Chairman. If not, we really appreciate your coming. 
Again, we apologize for the lateness of the evening. Your 
testimony was well taken, believe me.
    Ms. Cochran. Thank you.
    Mr. Dillon. Thank you for having us.
    The Chairman. This concludes the hearing on the camera 
legislation.
    This meeting stands adjourned.
    [Whereupon, at 9:35 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
